<html>
<title> - DISASTER DECLARATIONS: WHERE IS FEMA IN A TIME OF NEED?</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



        DISASTER DECLARATIONS: WHERE IS FEMA IN A TIME OF NEED?

=======================================================================

                              FULL HEARING

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 15, 2007

                               __________

                           Serial No. 110-17

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
35-276 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado
VACANCY

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                        Todd Gee, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                  (II)











                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     1
The Honorable Marion Berry, a Representative in Congress From the 
  State of Arkansas..............................................    22
The Honorable Gus M. Bilirakis, a Representative in Congress From 
  the State of Florida...........................................    21
The Honorable Christopher P. Carney, a Representative in Congress 
  From the State of Pennsylavnia.................................    26
The Honorable Henry Cuellar, a Representative in Congress From 
  the State of Texas.............................................    24
The Honorable Charles W. Dent, a Representative in Congress From 
  the State of Pennsylvania:
  Oral Statement.................................................    16
  Prepared Statement.............................................    17
The Honorable Bob Etheridge, a Representative in Congress From 
  the State of North Carolian....................................    29
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas........................................    31
The Honorable Mike Ross, a Representative in Congress From the 
  State of Arkansas..............................................     1

                               Witnesses

Mr. Bruce Baughman, Director, Alabama Emergency Management Agency
  Oral Statement.................................................    12
  Prepared Statement.............................................    14
The Honorable Mike Beebe, Governor, State of Arkansas:
  Oral Statement.................................................     2
  Prepared Statement.............................................     4
Admiral Harvey Johnson, Deputy Director, Federal Emergency 
  Management Agency, Department of Homeland Security:
  Oral Statement.................................................     7
  Prepared Statement.............................................    10

                             For the Record

Prepared Statements:
  The Honorable Kevin McCarthy, a Representative in Congress From 
    the State of California......................................    32
  Mr. William ``Graig'' Fugate, Director, Florida Division of 
    Emergency Management.........................................    33
Additional Questions and Responses:
  Responses From Adm. Harvey Johnson.............................    38

 
        DISASTER DECLARATIONS: WHERE IS FEMA IN A TIME OF NEED?

                              ----------                              


                        Thursday, March 15, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                            Washington, DC.
    The committee met, pursuant to call, at 2:29 p.m., in Room 
311, Cannon House Office Building, Hon. Bennie Thompson 
[chairman of the committee] presiding.
    Present: Representatives Thompson, Jackson Lee, 
Christensen, Etheridge, Cuellar, Carney, Dent, and Bilirakis.
    Also present: Representatives Berry, Ross and Mica.
    Chairman Thompson. [Presiding.] The Committee on Homeland 
Security will come to order.
    The committee is meeting today to receive testimony on 
FEMA's disaster declaration process and particularly the 
application to recent disasters.
    The chair would like to acknowledge that two members will 
be here who are not on the full committee. Mr. Ross and Mr. 
Mica would like to participate in the hearing for today. 
Consistent with the rules and practices of the committee, we 
were pleased to honor their requests.
    I ask unanimous consent to allow Representatives Ross and 
Mica to sit and question the witnesses at today's hearing.
    Without objection, so ordered.
    I understand, Governor, you have an event that you 
absolutely positively have to be there, and we want to 
accommodate you. We are going to abbreviate my remarks for this 
hearing in order to facilitate an opportunity for you to go 
forward.
    All of you had experience in disasters, and you bring a 
unique perspective to this body.
    I would like to defer to Mr. Ross at this time to introduce 
his governor to the panel in order for him to present his 
testimony.
    Mr. Ross?
    Mr. Ross. Mr. Chairman, thank you for calling this hearing 
today.
    At my request, thank you for the opportunity to sit here on 
the panel with the members of the Homeland Security Committee 
today.
    I want to begin by apologizing to my governor, who, as we 
all know, we thought the hearing was going to begin a 1 p.m. He 
has an event he has to get back to Arkansas for, so he is going 
to have to leave rather quickly.
    But the good news is he was here on time and has been 
patiently waiting for all of us to get back from votes. I want 
to thank him for his patience and indulgence and for being here 
with us today.
    Mike Beebe is the new governor of the state of Arkansas. He 
is a former colleague of mine in the Arkansas State Senate, 
where he was a great friend and mentor during our 10 years 
together. Governor Beebe has quickly become known as a common-
sense, no-nonsense, bipartisan governor.
    I am pleased Governor Beebe has come to Washington today, 
specifically made this trip to share his recent experience 
working with FEMA, or attempting to work with FEMA.
    I want to thank again this committee and you, Mr. Chairman, 
for holding this hearing and for inviting our governor to be 
here today to share his recent experiences with us.
    Chairman Thompson. Thank you very much.
    Our other two witnesses are Admiral Harvey Johnson, who is 
the deputy director and chief operating officer for the Federal 
Emergency Management Agency. Our third witness is Mr. Bruce 
Baughman, who is director of the Alabama Emergency Management 
Agency.
    We would like to welcome you two gentlemen also.
    Governor, if you could summarize your testimony for 5 
minutes, we will now start with you.

   STATEMENT OF HON. MIKE BEEBE, GOVERNOR, STATE OF ARKANSAS

    Governor Beebe. Thank you, Mr. Chairman and members of the 
committee. I am grateful for the opportunity to discuss the 
severe weather and tornadoes that recently struck Arkansas, and 
the resulting federal response.
    On February 24, our people in South Arkansas faced a 
natural disaster in the form of severe storms, accompanied by 
heavy rainfall, high winds, including the touchdown of an F3 
tornado into Desha County. Within hours following the disaster, 
I had my own staff on the ground, along with emergency 
responders, state police, National Guard troops, officials of 
the Arkansas Department of Emergency Management, Arkansas Game 
and Fish officers, Arkansas Forestry Commission personnel and 
equipment, and the Arkansas Department of Corrections.
    The day after the tornado, 800 Arkansans in a community of 
5,000 woke up without their jobs. The Arkansas Department of 
Workforce Services already knows of 450 affected individuals, 
and expects a total of approximately 500 to be out of work for 
extended time, roughly 10 percent of the total population in 
Dumas.
    On February 25, my administration set up the State 
Emergency Operations Center in response to damages and 
resources requested in the Dumas area. On Tuesday, February 27, 
I requested federal aid including direct federal assistance, 
housing assistance, and low-interest loans. I made this request 
of President Bush in a letter addressed to William Peterson, 
Region VI FEMA Director.
    After my initial FEMA request, I spoke briefly with two 
FEMA officials about the damage report. It wasn't until 
Thursday, March 8 that I received an official comment from the 
department. That was 10 days after the initial request and 13 
days after the tornadoes destroyed Dumas.
    While waiting for a response from FEMA, my administration 
was receiving mixed messages through the media about our 
disaster request. There were quotes from anonymous FEMA 
officials stating that we were not going to receive federal 
assistance due to our current state budget surplus. When we 
received the letter from David Paulison denying our request for 
assistance, the Bush administration made an offer of 30 FEMA 
trailers from the Hope Airport.
    On Friday, March 9, we were informed that we were being 
given 23 mobile homes and 7 travel trailers. It was made clear 
that we could get more if needed. We subsequently did, 
receiving an additional nine travel trailers and one mobile 
home. However, no offer of assistance in moving those trailers 
or setting them up was made.
    I have to thank Representative Mike Ross and our federal 
delegation for their persistence and attention to this disaster 
and for scheduling this hearing today to find answers to 
questions that are on the minds of Arkansans. Why was Arkansas 
denied federal assistance for the people of Desha County? And 
what lies behind the problems of the request process?
    For every home obliterated or devastatingly damaged, there 
is a family who has lost everything except each other. For 
every business decimated or badly damaged, there is a dream 
postponed. For every day that passed without federal response, 
there was a trust betrayed.
    To simplify the request process, we have some suggestions: 
implement a better system for timely response for disaster 
declarations from FEMA; clarify the requirements for federal 
aid under Title 44, Chapter 206, Section 38 Individual 
Assistance; provide a greater understanding of the subjective 
factors to be considered and how they are evaluated in making 
the decision for an emergency declaration; talk directly to 
state officials instead of through anonymous sources in the 
media; make FEMA surplus trailers available for emergency 
housing, but separate that process from the emergency 
declaration so that that request can be considered concurrently 
in a more timely manner to better serve those impacted by a 
natural disaster and in need of temporary housing; and provide 
support for the transportation and setup of FEMA surplus 
trailers, rather than just unlocking the gate for them to be 
picked up.
    The last thing, Mr. Chairman, I want to say in this regard 
is I think consistent with the whole FEMA philosophy and the 
whole FEMA espoused and stated policy, and that is don't punish 
a state, don't punish a community for helping themselves. Don't 
punish people who have a good plan in place to take care of 
themselves. We don't expect FEMA to solve all our problems. We 
don't expect the federal government to solve our problems. We 
will take care of Arkansans one way or the other, whether we 
get any federal help or whether we don't get any federal help.
    But it is so much easier and quicker and better and more 
thorough if we can be a partner with the federal government and 
obtain that assistance. We didn't ask for a full-fledged 
disaster declaration. We merely asked for the emergency 
declaration. We do have resources which have been on the ground 
and which are continuing to be on the ground to address this 
issue.
    We think FEMA and the federal government should count that 
against us and take that into consideration, and subtract any 
assistance that FEMA would give, taking into consideration what 
we are able to do. But it sends the wrong message if, indeed, 
the federal government wants the states to put a plan together 
to help themselves and take their share of the responsibility, 
it sends the message that if you do that, we are not going to 
help you at all. So it is counterproductive.
    You will have, not us, I am sure, but some people less 
energized to try to take care of themselves. I repeat, Mr. 
Chairman, as long as Arkansans have got one hand to lend to 
another, we will take care of ourselves, and we are right now, 
but we would like to have had some help.
    [The statement of Governor Beebe follows:]

  Prepared Statement of the Honorable Mike Beebe, Governor, State of 
                                Arkansas

    Thank you, Mr. Chairman and Members of the Committee. I am grateful 
for the opportunity to discuss the severe weather and tornadoes that 
recently struck Arkansas and the resulting federal response.
    All Arkansans owe a tremendous debt of gratitude to Congressman 
Mike Ross, Senators Mark Pryor and Blanche Lincoln, and all the State's 
federal delegation for their work to support and help rebuild the 
communities affected by the recent storms.
    Obtaining help for our citizens in need certainly has not been a 
partisan effort, but it has, instead, been an Arkansas effort, one on 
behalf of the people of our State.
    But let me be clear, even without the support of the President for 
an Emergency Declaration and without the support of FEMA, we did not 
wait before taking action. In my State, as long as an Arkansan has one 
good hand to extend, we will take care of our own.
    On February 24, 2007, severe storms, including heavy rainfall and 
high winds, struck the South Arkansas counties of Bradley, Desha, Drew, 
and Union. As part of that weather system, an F3 tornado touched down 
in Desha County, leaving lives, homes, and businesses in shambles.
    While we were fortunate that no deaths resulted directly from the 
severe weather, there was enormous damage to the communities affected, 
to homes, businesses, and the lives of our people were terribly 
disrupted:
        <bullet> Desha County, worst hit by the tornadoes, had 27 
        people injured, including two hospitalized in critical 
        condition;
        <bullet> Bradley County reported six injuries, including one 
        life-threatening injury; and
        <bullet> In Union County, three individuals were transported to 
        the hospital with minor injuries.
    Two highways, one in Dumas and one from Dumas to DeWitt, were 
temporarily shut down and traffic rerouted. On Tuesday, February 27th, 
Highway 65 was reopened.
    A power substation was also destroyed in Dumas. A total of 2,800 
customers were without power. As of March 1, 90 percent of the power 
had been restored.
    While this data describes major inconveniences, it says nothing of 
the long-term physical destruction Arkansans are dealing with. The 
residential damage in South Arkansas was expansive:
        <bullet> Ashley County reported minor damage to only one home 
        in North Crossett;
        <bullet> Bradley County saw five homes suffer damage;
        <bullet> Drew County had two houses damaged;
        <bullet> Union County reported that 10 homes were damaged; and
        <bullet> Desha County lost a total of 37 homes, including 17 
        mobile homes that were completely destroyed. Another 25 homes 
        sustained major damage, and minor damage was inflicted on 
        upwards of roughly 60 homes.
    The storms and tornadoes devastated many Desha County public 
facilities, including:
        <bullet> The City Park;
        <bullet> Baseball fields;
        <bullet> The Community Building; and
        <bullet> Twenty assisted-living units.
    In addition, a school building in Reed, Arkansas, must be repaired 
following major roof damage.The severe weather and tornadoes wreaked 
havoc on the businesses of Desha County:
        <bullet> Multiple businesses in downtown Dumas were destroyed, 
        a total of 25; and
        <bullet> Nine businesses suffered major damage with more 
        sustaining at least some destruction.
    Of the communities impacted, Dumas sustained the greatest economic 
devastation.
    Dumas Mayor Marion Gill has reported an approximate loss of 
$775,000 from this disaster. That figure includes:
        <bullet> Clean-up and landfill costs;
        <bullet> Rental of 11 electric generators;
        <bullet> Traffic light restoration;
        <bullet> Overtime for city employees;
        <bullet> Hiring of extra part-time employees;
        <bullet> Fuel costs;
        <bullet> Loss in real-estate taxes; and
        <bullet> Destruction of the Community Center, previously 
        hosting 40 community events per month.
    The impact on jobs for a community of 5,000 is staggering.
        <bullet> The largest single private employer in Dumas, Federal-
        Mogul
        Corporation, employing 275 people, was severely damaged;
        <bullet> Akin Industries Inc., employing 175 people, was 
        severely damaged;
        <bullet> Arkat Nutrition, employing 120 people, was severely 
        damaged.
    The day after the tornado, 800 Arkansans in a community of 5,000 
woke up without their jobs. The Arkansas Department of Workforce 
Services has, so far, counted 450 affected individuals and expects that 
a total of approximately 500 previously employed workers will be out of 
work for an extended time; this is roughly 10 percent of the Dumas 
population.
    As hard as all of this is to bear, none of it can even begin to 
describe the toll on human lives. For every home obliterated or 
devastatingly damaged, there is a family who has lost everything except 
each other. For every business decimated or badly damaged, there is a 
dream postponed. For every day that passed without federal response, 
there was a trust betrayed.
    Given the magnitude of devastation, I immediately declared Desha, 
Drew, and Union Counties state disaster areas on Monday, February 26, 
2007. On Wednesday, February 28, 2007, I added Bradley County to that 
list, as more damage there became apparent. Within hours following the 
disaster, I had my own staff on the ground, along with emergency 
responders, State Police, National Guard Troops, officials of the 
Arkansas Department of Emergency Management, Arkansas Game and Fish 
Commission, Arkansas Forestry Commission, and the Arkansas Department 
of Correction. As a result, I authorized more than $200,000 from the 
Governor's Disaster Fund to help those in the afflicted areas.
    On February 24, 2007, the afternoon of the storms, my 
administration set up the State Emergency Operations Center in response 
to damages and resources requested in the Dumas area of Desha County. 
Area coordinators were dispatched to the affected area to coordinate 
responses and provide technical advice.
    The greatest impact was seen in neighbor helping neighbor. 
Communities came together as churches became shelters and the Salvation 
Army and other groups began to serve hot meals to those in need.
    And amidst all of this, we were hoping for aid from FEMA. On 
Tuesday, February 27, the third day after the storm, I requested 
federal aid in the form of an Emergency Declaration, including direct 
federal assistance, housing assistance, and low-interest loans. I made 
this request of President Bush in a letter addressed to William 
Peterson, Region VI FEMA Director.
    When Arkansas has had disasters in the past, we have always 
attempted to use all of our own state resources to try to address our 
people's needs. Here is a list of the most recent State Disasters that 
we have dealt with, without requesting FEMA's assistance:
        DR 06-23 (8/14/06): Conway County ADEM Disbursed: $1758.00 
        DHHS--IFG Program: $50,977.31
        DR 06-26 (9/22/06): Clay, Fulton, Lawrence, Sharp, and 
        Randolph: ADEM Disbursed: $4,248.00 DHHS--IFG Program: 
        $418,160.76
        DR 07-01 (1/13/07): Benton, Jackson, and Pope Counties ADEM 
        Dispersed: $12,042.50 DHHS-IFG Program: $116,556.50
        DR 07-11 (2/24/07): Bradley, Desha, Drew, Union Counties ADEM 
        Dispersed: $7489.00 DHHS--IFG Program: $5,392.00
    After my initial FEMA request, I met with two FEMA officials, FEMA 
Region VI Director William (Bill) Peterson and Deputy Director Gary 
Jones, in a regularly scheduled meeting, about the damage reports. It 
was not until Thursday, March 8, 2007, that I received an official 
comment from the Department. That was ten days after the initial 
request and thirteen days after the tornadoes destroyed Dumas.
    On February 25, 2007, two FEMA officials and one SBA official were 
on the ground in Dumas performing a Preliminary Damage Assessment 
(PDA). Over the next few days, there were several follow-up 
conversations with FEMA officials about details surrounding the request 
and possible declaration.
    Following the February 25, 2007 PDA, Arkansas Department of 
Emergency Management officials spoke to Response and Recovery Branch 
Chief Tony Robinson and FEMA Logistics Officer Wayne Fairly about the 
details of the PDA and the status of our declaration. David Maxwell, 
the Arkansas Division of Emergency Management Director, spoke with 
Region VI Deputy Director Gary Jones and Region VI Director William 
Peterson on March 5 and 6, 2007, about the request for a declaration. 
Maxwell also spoke with FEMA Director David Paulison on March 7 and 8, 
2007, regarding the request for a declaration.
    While waiting for a response from FEMA, my administration was 
receiving mixed messages through the media about our disaster request. 
There were quotes from anonymous FEMA official expressing that we were 
not going to receive federal assistance due to our current state budget 
surplus. The anonymous official suggested that we should pay for all of 
the damage with our surplus. I don't think it is right that Arkansas 
should be punished for balancing a budget better than the federal 
government has, especially when Georgia and Alabama are also running a 
budget surplus and have received federal help for natural disasters 
that occurred at a similar time.
    There were other reports claiming that we would not receive 
assistance due to the percentage of damage that was privately insured. 
This was all being reported by the media, without attribution, as 
actual discussions with FEMA officials before we had ever received 
final confirmation of our request status.
    On March 8, 2007, we received the letter from David Paulison 
denying our request for assistance. FEMA soon made a formal proposal of 
30 FEMA trailers from the Hope Airport. On Friday March 9, 2007, in a 
9:30 a.m. (CST) conference call, we were informed that we were being 
given 23 mobile homes and seven travel trailers. It was made clear that 
we could get more if needed (we subsequently did, receiving an 
additional nine travel trailers and one mobile home). Arkansas 
Department of Emergency Management staff in Hope and FEMA staff have 
been working cooperatively to make this an efficient and timely 
process. However, because our State did not receive a disaster 
declaration, we were left with all the financial and logistical 
responsibilities of moving, setting up, and supporting the trailers.
    On Saturday morning, March 10, a private Arkansas transit firm 
began moving the trailers from the Hope Municipal Airport to Dumas at a 
discounted rate for the State. Though our disaster was devastating to 
our citizens, we would be left to bear the costs associated with any 
good will that FEMA was finally offering to assist our citizens.
    In the aftermath of these storms, the citizens in the communities 
of Dumas and Backgate needed housing assistance, disaster capital, and 
other direct federal assistance. FEMA stated in their denial letter 
that,
                ``Based on our review of all of the information 
                available, it has been determined that the damage to 
                the private sector was not of such severity and 
                magnitude as to be beyond the capabilities of the State 
                and affected local governments. Furthermore, we have 
                determined that supplemental Federal assistance is not 
                necessary. Therefore, I must inform you that your 
                request for an emergency declaration is denied.''
    The dozens of Arkansans whose homes and businesses were destroyed 
would disagree with FEMA, I believe. I think those individuals whose 
businesses and homes were wiped out would believe the ``damage'' was 
``of such severity and magnitude'' as to warrant help. I would agree 
with them.
    Arkansans help pay for FEMA disaster relief. We all hope that our 
tax dollars were among the FEMA assistance funds that went to tornado 
victims in Alabama and Georgia, because people throughout our State 
feel empathy for those who saw their lives torn apart by storms. We 
only regret that FEMA declined to respond in a similar way in Arkansas, 
but instead waited 12 days after a disaster to tell us no help would be 
coming, based on reasoning that defies common sense.
    Thankfully, recognizing the level of disaster in our state, the 
Small Business Administration granted my request for disaster loans for 
the people of Arkansas. These low-interest, long-term loans will help 
individuals and families rebuild their homes and businesses. For that, 
our State is grateful.
    While we are aware of certain criteria, in Title 44, Chapter 206, 
Section 38, for individual and public assistance, there is allowed a 
great deal of subjectivity in that criteria. And, it remains unsaid and 
unclear exactly what in that subjectivity prevented Arkansas from 
warranting a federal declaration. How many homes and businesses must be 
destroyed? How many lives must be put on hold by disaster before FEMA 
decides to provide the emergency help our tax dollars pay for?
    Arkansas's federal delegation has been resolute and steadfast 
during this disaster, providing their support and a unified voice for 
the residents of Desha County. I must again thank Representative Mike 
Ross for his perseverance and attention to this disaster and for 
scheduling this hearing today to get answers to questions that are on 
the minds of all Arkansans: What exactly can states and local 
communities expect from the new and improved FEMA and is there not a 
better way of doing things?
    To simplify the disaster declaration and request process, 
refinements must be made to ensure that the process is fair and 
reasonable for all states that are impacted by disasters. Some of the 
suggestions that the State of Arkansas puts forward for Congressional 
consideration include:
         Implement a better system for timely response for disaster 
        declarations from FEMA;
         Clarify the requirements for federal aid under Title 44, 
        Chapter 206, Section 38, Individual Assistance;
         Provide a greater understanding of the subjective factors to 
        be considered and how they are evaluated in making the decision 
        for an emergency declaration;
         Talk directly to state officials instead of through anonymous 
        sources to the media;
         Make FEMA's surplus trailers available for emergency housing, 
        but separating that process from Emergency Declarations, so the 
        request can be considered concurrently and in a more timely 
        manner to better serve those impacted by a natural disaster and 
        in need of temporary housing; and
         Provide support for the transportation and set-up of FEMA 
        surplus trailers, rather than just unlocking the gate for them 
        to be picked up.
    I have provided this testimony in hopes that it will help in 
finding a better resolution for the next state or community to face a 
disaster. Although Arkansas has the right to appeal the decision to 
deny our emergency declaration, our acceptance of disaster loans from 
the Small Business Administration will pre-empt that. Our people need 
the help now, not after an appeal process, and I decided on Monday, 
March 12, 2007, to accept the requested SBA loans as soon as they were 
offered.
    Thank you, Mr. Chairman, for the opportunity to share Arkansas's 
experiences in working with the Federal Emergency Management Agency. My 
State is a State of action and inclusion, and as I said at the 
beginning of my testimony, as long as one Arkansan has a hand to extend 
to another, we will take care of our own. I appreciate your attention 
to this important issue. With Congress focused on the transition of 
preparedness functions back to FEMA by March 31, 2007, I hope that the 
disaster declaration and relief process will be a significant issue for 
your oversight of the Post-Katrina FEMA Reform Act. As we move forward 
to recover from our recent disaster, I ask that you keep the people of 
Dumas, who have suffered so much and lost so much, in your thoughts and 
prayers.

    Chairman Thompson. Thank you very much, Governor, for your 
testimony.
    I would like to ask unanimous consent to allow Congressman 
Berry from Arkansas to join the Homeland Security Committee 
here. Without objection.
    Admiral Johnson, will you begin your testimony please?

 STATEMENT OF ADMIRAL HARVEY JOHNSON, DEPUTY DIRECTOR, FEDERAL 
  EMERGENCY MANAGEMENT AGENCY, DEPARTMENT OF HOMELAND SECURITY

    Admiral Johnson. Mr. Chairman, before I address the primary 
purpose of the hearing today, I would like to speak to an event 
that is important to you and other members of the committee. 
That event will also address concerns that you raised with 
Secretary Chertoff on Tuesday. That event, Mr. Chairman, is the 
closure of FEMA's Bonner and Albin trailer park in Hammond, 
Louisiana and the rapid relocation of its 54 families to other 
FEMA trailer sites during a very short period of time.
    FEMA takes most seriously our responsibilities for the 
welfare of individuals, especially those individuals for whom 
we provide housing assistance. Embracing these 
responsibilities, FEMA leadership in the Gulf Coast Recovery 
Office determined that the situation at the trailer park was 
detrimental to the health and welfare of those residents, with 
many children and many of those were in fragile health.
    In the past 5 months, electricity has been shut off across 
the entire park or parts of the park on three separate 
occasions. This has been a concern to the residents, 
particularly to two who are on required oxygen. Even more 
disturbing, the park has seen recurring incidents of a leaky 
sewage system, with many reports of standing fetid water 
accompanied by, as the residents refer, unbearable stench.
    This is a situation that FEMA brought to the attention of 
the State Department of Health and Hospitals, who are likewise 
concerned about the implications for the health and safety of 
those residents. On multiple occasions, FEMA engaged in 
specific discussions with the trailer park owner-operator in 
order to seek resolution of these problems. Nevertheless, 
despite indications that corrective action would be taken, the 
problems persist.
    As a result, FEMA has no reasonable expectation that the 
threat to the health and safety of the park's residents would 
improve. So FEMA could the only course of action that was 
reasonably possible. The situation is considered so intolerable 
to the residents that they were relocated to nearby trailer 
sites.
    Contrary to media reports, all residents were provided an 
opportunity to identify a preferred location, and the vast 
majority were very grateful to be relocated. FEMA provided on-
site supervision of the moving process and the residents were 
provided assistance to help them in the move. No one was 
evicted and no one was forced to look for alternative housing.
    While the decision to relocate was unequivocally the right 
one, I regret that the residents were given insufficient 
advance notice and that the majority of the relocation was 
completed in less than 48 hours. This proved to be unsettling 
to a number of the residents. FEMA's intentions were good and 
the action was initiated by genuine concern and compassion for 
the health and welfare of the residents.
    However, the level of communication and consultation should 
have been better. We want FEMA to be characterized by its 
concern and compassion for the disaster victims who we are 
charged to serve, not by the kind of inadequate communications 
and consultation that was revealed by this incident.
    The distinction has been made clear to FEMA leadership on-
site. Mr. Chairman, you will not see this incident repeated. 
Rather, you will see a FEMA that is not only concerned with 
addressing the needs of housing residents, but it is also ready 
to demonstrate and communicate that concern both in our actions 
on the ground every day.
    Mr. Chairman, with your permission, I would like to begin 
to address the issue that is the purpose of this hearing.
    You have heard Director Paulison describe new FEMA as an 
organization that aspires to become the nation's premier 
emergency management and preparedness agency. Drawing on the 
lessons learned from Hurricane Katrina, we want to be a more 
agile and responsive partner to the states by leaning further 
forward to deliver assistance more effectively.
    One of the ways we demonstrate progress in our journey to 
achieve David Paulison's vision for new FEMA is through the 
declaration process. I would like to describe that process 
briefly. There are four elements of the process. There is the 
request, the threshold, the scope, and the review that leads to 
a recommendation and a decision.
    The request, in providing either a president's declaration 
of emergency or a presidential declaration of major disaster, 
or a denial, either outcome is in response to a request from 
the governor of the state. And such a request is required to be 
a formal one, written in a manner that contains prescribed 
information. The request is normally preceded by joint state 
and federal preliminary damage assessments, which are designed 
to qualitatively determine the impact and magnitude of damage.
    These preliminary damage assessments are led by the state 
and conducted jointly with FEMA, and typically include 
representatives from the local government, the American Red 
Cross, and the Small Business Administration. These are well-
practiced processes that results in data and information that 
is descriptive, it is agreed to by all parties, and it is the 
basis for which the governor bases his request and that FEMA 
forms its review and recommendation.
    The next element is the threshold. The basis for the 
governor's request is that an incident has occurred, or 
threatened to occur, and that it is of a magnitude beyond the 
effective response capability of the state and the affected 
local communities. This is an important point of distinction 
because it points to the need to establish reasonable 
expectations for the assistance between that provided by the 
state and local government, and that provided by the federal 
government for any given incident.
    The next element, following the request and the threshold, 
is the scope. The governor must identify the scope of 
supplemental federal assistance. It could be individual 
assistance. It can be public assistance or hazard mitigation, 
or any or all of the three. I emphasize ``supplemental'' 
because it needs to consider not just the assistance from state 
and local government, but also from the individual in the form 
of insurance, from non-Stafford Act assistance from other 
federal agencies, or the aid available from a wide array of 
largely local disaster relief organizations.
    The final element, Mr. Chairman, is the review. The 
governor's request is submitted to the FEMA region where the 
regional director and his staff analyze the preliminary damage 
assessment data and summarize the findings and forward a 
recommendation to the director of FEMA. When considering the 
governor's request for a declaration, the president is required 
to comply with the authorizing provisions of the Stafford Act. 
That Act restricts the use of arithmetic formulas or sliding 
scales based on income or population as a basis for determining 
the need for federal supplemental aid.
    As a result, FEMA uses a number of factors to determine the 
severity, the magnitude and the impact of a disaster. These 
factors are well known and they include things like the amount 
and type of damage, the number of homes destroyed or damaged; 
the impact on infrastructure in affected areas and critical 
facilities; imminent threats to public health and safety; level 
of insurance coverage available; and assistance available from 
other sources; the number of injuries and deaths.
    This list is somewhat different for each event, and each 
event is and must be considered on its own merits. Rather than 
any particular element, all of these are considered in their 
totality. When this process leads to a presidential 
declaration, we work then with the state to implement the 
provisions of the Stafford Act in the geographic area that is 
determined eligible for assistance, and provide the types of 
assistance that have been approved.
    When this process leads to the denial of a declaration or a 
restriction in the area or the forms of assistance, the 
governor may appeal.
    Chairman Thompson. Excuse me, Mr. Johnson. You are 2 
minutes over already. If you would wrap it up?
    Admiral Johnson. Let me describe briefly our issue as this 
process played out with Arkansas.
    Chairman Thompson. Excuse me. You will have your time to 
explain it.
    Admiral Johnson. Yes, sir.
    [The statement of Admiral Johnson follows:]

               Prepared Statement of Adm. Harvey Johnson

    Good morning Chairman Thompson, and members of the Committee.
    I am Harvey Johnson, Deputy Director and Chief Operating Officer of 
the Federal Emergency Management Agency (FEMA). I welcome the 
opportunity to appear before this committee to summarize and discuss 
FEMA's emergency response and declaration process in the event of a 
natural or man-made disaster. More importantly, I am glad to be given 
an opportunity to describe this process as it applied to the tornadoes 
that hit Arkansas.
    You have heard ``New'' FEMA described as an organization that 
aspires to become the nation's preeminent emergency management and 
preparedness agency. Drawing on the lessons learned from the Hurricane 
Katrina experience, we want to be a more agile and responsive partner 
with the States by leaning further forward to deliver assistance more 
effectively.
    When an incident occurs, either man-made or natural, rather than 
stand-by and wait for the State to be overwhelmed before offering 
assistance, we want to quickly establish contact with the State Office 
of Emergency Management, deploy FEMA people, and position ourselves to 
rapidly meet the emerging needs of the State.
    New FEMA will press forward when disasters strike, in partnership 
with the State, to immediately assess the damage on the ground, to 
jointly determine what gaps may need to be addressed by Federal 
capabilities, and if so, how to deliver it effectively. While FEMA is 
going to lean forward, it must do so within the bounds of the law and 
the guidelines that exist with regard to the President's disaster 
declarations.
    When an event is of the magnitude or severity that it exceeds the 
State and local government's ability to respond, the Robert T. Stafford 
Disaster Relief and Emergency Assistance Act, 42 U.S.C.  5121-5206 
(Stafford Act), authorizes the Federal government, through FEMA, to 
provide emergency supplemental assistance to State and local 
governments to support, but not supplant, the State's role of 
alleviating the suffering and damage that results from emergency or 
disaster events.
    The assistance provided by FEMA is supplemental in nature. 
Following the onset of an event, State and local emergency services 
personnel, volunteers, humanitarian organizations, and other private 
interest groups are the first line of support to provide emergency 
assistance to protect the public's health and safety and to meet 
immediate humanitarian needs.
    A governor may determine, after consulting with local government 
officials, that the response or recovery may be beyond the combined 
resources of both the State and local governments and that Federal 
assistance may be needed. In requesting supplemental Federal assistance 
under the Stafford Act, the governor must certify that the severity and 
magnitude of the event exceeds State and local capabilities; that 
Federal assistance is necessary to supplement the efforts and available 
resources of the state and local governments, disaster relief 
organizations, and compensation by insurance for disaster related 
losses; confirm execution of the State's emergency plan; and certify an 
intent to adhere to cost sharing requirements.
    To assist a governor in determining if a request for assistance 
should be made, a Preliminary Damage Assessment (PDA) may be conducted 
at the request of the State. PDA teams are comprised of personnel from 
FEMA, the State's emergency management agency, county and local 
officials and the U.S. Small Business Administration.
    The team begins by reviewing the types of damage or emergency costs 
incurred by the units of government, and the impact to critical 
facilities, such as public utilities, hospitals, schools, and fire and 
police departments. The teams also examine the effect on individuals 
and businesses, including the number and extent of businesses and 
individual households damaged, the number of people displaced, and the 
threat to health and safety caused by the event. Additional data from 
the Red Cross or other local voluntary agencies is also reviewed. It is 
important to note that while FEMA may collect information about all 
types of damage; only damage that would be eligible for FEMA assistance 
may be considered in recommending a Federal disaster declaration. For 
example, FEMA is not allowed to duplicate benefits provided by 
insurance and only provides public assistance grants to public and 
eligible private, non-profit applicants.
    The information collected during the PDA can then be used by the 
governor to support a declaration request for Federal assistance that 
is beyond the capacity of State and local resources. This includes 
showing the cost of response efforts, such as emergency personnel 
overtime, other emergency services, and damage to citizens. The 
information gathered during the assessment will help the governor 
certify that the damage exceeds State and local resources. The 
governor's request is evaluated by the FEMA Region, and forwarded to 
FEMA Headquarters with a recommendation for support or denial.
    When considering a governor's request for a disaster declaration, 
the President is required to consider the Stafford Act, as well as its 
implementing regulations. The Stafford Act restricts the use of 
arithmetical formulas or a sliding scale based on income or population 
as the basis for determining the need for Federal supplemental aid. As 
a result, FEMA uses a number of factors to determine the severity, 
magnitude, and impact of a disaster event. The Code of Federal 
Regulations, Chapter 44, Part 206, specifically details the criteria 
and factors that may be considered. I would like to submit for the 
record the relevant portion of the CFR. While the CFR details the 
criteria and factors that are considered, I would like to identify the 
primary factors here, including:
        <bullet> Amount and type of damage (number of homes destroyed 
        or with major damage);
        <bullet> Impact on the infrastructure of affected areas or 
        critical facilities;
        <bullet> Imminent threats to public health and safety;
        <bullet> Impacts to essential government services and 
        functions;
        <bullet> Unique capability of Federal government;
        <bullet> Dispersion or concentration of damage;
        <bullet> Level of insurance coverage in place for homeowners 
        and public facilities;
        <bullet> Assistance available from other sources (Federal, 
        State, local, voluntary organizations);
        <bullet> State and local resource commitments from previous, 
        undeclared events;
        <bullet> Frequency of disaster events over recent time period;
        <bullet> The scope and magnitude of unmet needs of those 
        affected by the event; and
        <bullet> The number of injuries and deaths.
    The very nature of disasters--their unique circumstances, the 
unexpected timing, and varied impacts_precludes a complete listing of 
factors considered when evaluating disaster declaration requests 
because they are bound to be different for each event, and each event 
is considered on its own merits. However, the above lists most primary 
considerations. These considerations are considered in their totality 
and no single factor is considered in isolation when developing a 
recommendation to the President.
    FEMA recognizes that all disaster events, regardless of magnitude, 
can be devastating to the people and communities affected. We 
sympathize with the homeowners' efforts to repair their homes and 
recover from the recent tornadoes. While we do realize that there are 
individuals and households in need, the Stafford Act requires a showing 
that the event is beyond the capability of the State and affected local 
governments to respond.
    I would like to comment on the recent tornadoes in Arkansas. On 
Saturday, February 24, a severe weather system that ultimately moved 
across the Southeast caused at least one, and likely two, tornadoes to 
touchdown in Southeast Arkansas, primarily in Desha County. FEMA 
immediately dispatched a representative to the State Emergency 
Operations Center. FEMA Director R. David Paulison made numerous calls 
to the Governor following the severe weather. And, FEMA personnel 
joined with the State the following day, February 25, to conduct 
Preliminary Damage Assessments.
    In response to this event, FEMA worked with the State to respond to 
their desire for manufactured housing for individuals impacted by the 
tornadoes. However, without a disaster declaration, FEMA has no legal 
authority to simply give Federal property directly to a State. 
Generally, when FEMA has excess property, it reports this property to 
GSA for disposal through that agency's system.
    While Congress did give FEMA broad new authorities to respond to 
disasters in the Post Katrina Emergency Management Reform Act of 2006, 
and there was a provision allowing for the disposal of unused housing 
units, the legislation did not authorize FEMA to, ``give away housing 
for the public good.''
    Specifically, the provision at issue grants to FEMA the authority 
to dispose of a discrete pool of unused manufactured housing, through 
GSA, and requires that we work with the Department of Interior to make 
these units available to Tribal governments. FEMA is in the final 
stages of policy development that will define our implementation 
procedures for this new authority.
    FEMA does have an overabundance of operational and disposable 
inventory of mobile homes and travel trailers in storage, and we are 
getting more every day as eligible applicants' requirements for them 
decline. We are working with GSA to dispose of many of the excess 
units. It is through GSA that FEMA has made housing units available to 
the State of Arkansas. On Tuesday of last week, Director R. David 
Paulison contacted David Maxwell, State Emergency Manager of Arkansas, 
and indicated that working through GSA, FEMA might be able to offer 
housing, and inquired how many units would they need.
    On Thursday, Arkansas requested 23 mobile homes and 7 travel 
trailers. At that time, Director Paulison made sure to emphasize to Mr. 
Maxwell that the State could have as many as they needed, which we 
would make available through GSA. This agreement was in place when the 
President turned down the Governor's request on Thursday. Thus, FEMA, 
working through GSA, had the flexibility to meet Arkansas' request for 
trailers.
    Given our current inventory of travel trailers and mobile homes, we 
will continue to utilize GSA as we always have to maintain our 
inventory at a level in alignment with our strategic needs.
    Thank you for the opportunity to explain FEMA's declaration process 
and I look forward to any questions you may have.

    Chairman Thompson. We will have some questions.
    Mr. Baughman, will you take your 5 minutes for us please?

  STATEMENT OF BRUCE BAUGHMAN, DIRECTOR, EMERGENCY MANAGEMENT 
                    AGENCY, STATE OF ALABAMA

    Mr. Baughman. Thanks, Mr. Chairman. I am Bruce Baughman. I 
am director of the Alabama Emergency Management Agency.
    A little bit about my background so you understand I know a 
little bit about the declaration process. I spent 4 1/2 years 
in the position I am in right now. Prior to that, I was with 
the federal government for 29 years, 22 of which I was with 
FEMA, and then prior to that 4 1/2 with the Mississippi 
Emergency Management Agency.
    I have dealt with declarations to include the Oklahoma City 
bombing, the World Trade Center, and sat in on over 300 
decision-making and disaster declarations. So I have been a 
part of the process for the last 32 years.
    Let me talk a little bit about the disaster that hit 
Alabama the week before last. Two weeks ago today, tornadoes 
ripped through the state of Alabama, causing 10 deaths and 
damaging hundreds of homes and public buildings in a six-county 
area. At 12:30 p.m., the disaster struck Miller's Ferry in 
Wilcox County, killing an individual and destroying 76 homes.
    Later that afternoon, at 1:47 p.m., another tornado struck 
the city of Enterprise, destroying the high school, killing 
eight students, destroying 716 homes, killing an elderly woman, 
injuring 60 individuals. So that was the extent of damage in 
Coffee County. An additional 50 homes in Henry County were 
damaged.
    We activated our Emergency Operations Center at 9:00 a.m. 
that morning in preparation for severe weather. As soon as 
reports came in, we dispatched emergency personnel to the 
affected counties to assist in response and recovery efforts. 
Over 350 state personnel from 12 agencies responded to the 
affected area.
    We activated the Alabama Mutual Aid System and dispatched 
two heavy rescue teams and a disaster mortuary team to Coffee 
County. These agencies assisted the stricken jurisdictions in 
search and rescue, debris removal, emergency communications, 
security, traffic control, and damage assessment.
    That afternoon at 3 o'clock, Governor Bob Riley declared a 
state of emergency. As soon as damage reports began coming in, 
the FEMA regional director, Major Phillip May, was on the phone 
with me asking what type of assistance was needed. The acting 
director of the FEMA Transition Recovery Office in Montgomery, 
Mr. Bob Ives, was dispatched to our emergency operations center 
to function as the FEMA liaison.
    At 7:05 p.m., I contacted FEMA Director David Paulison and 
reported the extent of the damages known at the time. Director 
Paulison stated to let him know what we needed from FEMA as 
soon as possible. Later that evening, we requested helicopter 
support for damage assessment. The next day, damage assessment 
operations began. As they were being conducted, Governor Bob 
Riley, State Superintendent Joe Morton, Congressman Terry 
Everett and myself toured the disaster area and met with the 
key city, state and county officials.
    At 3:47 p.m. that same day, Governor Bob Riley requested an 
expedited major disaster declaration to the president through 
the regional director for Coffee, Dallas, Henry, Lowndes, and 
Wilcox Counties. The request included public assistance, 
individual assistance, and mitigation in the request.
    On March 3 at 9:00 a.m. while the president was touring the 
disaster damages in Enterprise, he announced approval of the 
major disaster declaration for Coffee County for individual 
assistance. A joint PDA, preliminary damage assessments 
continued throughout March 3, 4, and 5 in the affected county. 
On March 6, Dale, Henry, Wilcox and Coffee Counties were added 
to the disaster declaration for public assistance.
    In my experience, I know the disaster declaration process, 
what it is and how it works, and how FEMA can respond. FEMA was 
nothing short of responsive to the needs of the citizens of the 
state of Alabama, and Director Paulison and his regional 
director contacted me a number of times to ensure that we had 
the state resources and federal resources necessary to meet the 
needs of the disaster victims.
    One of the first concerns I know the emergency managers had 
when FEMA was absorbed into the Department of Homeland Security 
was would that slow down the disaster declaration process. 
Well, the process has changed a little, because of FEMA's 
inclusion in the department. I do not believe that it has 
resulted in any substantial delays that have impacted the state 
of Alabama.
    I should add this is our sixth major emergency declaration 
the state has received in the last 4 years.
    That concludes my testimony.
    [The statement of Mr. Baughman follows:]

                  Prepared Statement of Bruce Baughman

                             MARCH 15, 2007

    Good Morning Chairman Thompson and Ranking Member King. I am the 
Director of the Alabama Emergency Management Agency, a position I have 
held for the last four years. Prior to that I served 24 years with the 
Federal Emergency Management Agency and four and a half years with the 
Mississippi Emergency Management Agency. I have spent the last thirty-
two years working over a hundred Presidential disasters and emergency 
declarations to include the Oklahoma City Bombing, events of 9/11, and 
being involved in the decision making process on several hundred 
requests for declarations. I am here to talk to you today about 
Alabama's recent experiences with disaster response and the Federal 
Emergency Management Agency.
    On March the first of this year, tornadoes ripped through the State 
of Alabama causing ten deaths and damaging hundreds of homes and public 
buildings over a six county area. At 12:30 pm a tornado struck the 
community of Miller's Ferry killing one individual and damaging or 
destroying 76 homes. Later that afternoon at 1:47 pm another tornado 
stuck the town of Enterprise in Coffee County destroying the Enterprise 
High School killing eight students, damaging or destroying 716 homes, 
and killing an elderly woman. Additionally, 50 homes were damaged or 
destroyed in Henry County.
    We activated our emergency operations center (EOC) at 9:00am on 
March 1, 2007 in preparation for severe weather. As soon as reports 
began to come in, we dispatched emergency personnel to the affected 
counties to assist in response and recovery efforts. Over three hundred 
and fifty state personnel from twelve state agencies (Alabama Emergency 
Management, Department of Public Safety, Department of Forestry, 
Alabama Department of Economic and Community Affairs, Department of 
Environmental Management, Department of Human Resources, Alcohol and 
Beverage Commission, Insurance Commission, State Fire Marshal's Office, 
Department of Transportation, the National Guard and Department of 
Public Health) responded to the affected area immediately. We also 
activated the Alabama Mutual Aid System and dispatched two heavy rescue 
teams (from Dothan and Mobile Fire and Rescue Departments) and a 
Disaster Mortuary Team (from Cullman County). These agencies assisted 
the stricken jurisdictions with search and rescue, debris removal, 
emergency communications, security, traffic control and damage 
assessment.
    At 3:00 pm on March the first, Governor Bob Riley declared a State 
of Emergency. As soon as the damage reports began to come in the FEMA 
Regional Director (Major Phillip May) was on the phone with me asking 
what type of assistance we might need. The Acting Director of the FEMA 
Transitional Recovery Office in Montgomery, Alabama (Robert Ives) was 
dispatched to our EOC to function as the FEMA liaison. At 7:05 pm I 
contacted FEMA Director David Paulison and reported the extent of our 
damages as known at that time. Director Paulison stated to let him know 
what was needed from FEMA as soon as possible. Later that evening we 
requested helicopter support from FEMA to assist in damage assessment. 
The next day when damage assessment operations began, Governor Bob 
Riley, State School Superintendent Dr. Joseph B. Morton, Congressman 
Terry Everett and myself toured the damaged areas and met with key 
city, county and state officials in Coffee and Wilcox counties. At 3:47 
pm that same day (March 2) Governor Riley submitted a request for an 
expedited Major Disaster Declaration to the President (through the FEMA 
Regional Director) for Coffee, Dallas, Henry, Lowndes and Wilcox 
Counties. The request included the Individual Assistance, Public 
Assistance, and Mitigation Assistance programs. On March the 3rd at 
9:00 am, the President while touring the damages in Enterprise 
announced that he had approved the Major Disaster declaration for 
Coffee County for the individual assistance program. Joint Federal and 
State damage assessment continued throughout March 3, 4 and 5 in the 
effected counties. On March 6, Dale, Henry, Wilcox and Coffee counties 
were added to the declaration for the Public Assistance Program.
    In my experience, I know how the disaster declaration process works 
and how FEMA should and can respond to a disaster. FEMA has been 
nothing short of responsive to the needs of the citizens of the State 
of Alabama and Director Paulison has personally contacted me during 
disasters to ensure that the state has the resources necessary to meet 
the immediate needs of disaster victims. One of the first concerns that 
emergency managers around the country had when FEMA was included in the 
Department of Homeland Security was how the disaster declaration and 
relief process would work. While that process has changed a little 
because of FEMA's inclusion in the Department, I do not believe it has 
resulted in any delays that have impacted the State of Alabama.

Attachment 1

------------------------------------------------------------------------
                                       Ivan       Dennis       Katrina
------------------------------------------------------------------------
1. When disaster occurred             9/13/04     7/10/05       8/29/05
------------------------------------------------------------------------
2. When Governor issued               9/13/04     7/08/05       8/28/05
 proclamation
------------------------------------------------------------------------
3. When we requested declaration      9/15/04     7/09/05       8/29/05
 from FEMA
------------------------------------------------------------------------
4. When it was granted                9/15/04     7/10/05       8/29/05
------------------------------------------------------------------------


    Chairman Thompson. Thank you very much, Mr. Baughman.
    According to the committee rules, I will begin the 
questioning, but I will, in the interests of making sure we get 
the governor on the record with any questions they might have, 
I have one question.
    Governor, you have heard Mr. Baughman talk about how much 
Mr. Paulison was in contact with him during this emergency. Can 
you tell us what kind of contact you or your representatives 
had with FEMA during the same time?
    Governor Beebe. I never talked to Mr. Paulison. I actually 
did talk with two FEMA officials who happened to be for a 
scheduled visit anyway. As it turned out, they were in my 
office the day after we requested the federal relief.
    It is my understanding that our people, including my 
director of emergency management, was in constant contact, 
though, with FEMA officials. They talked quite a bit. I think 
there were several instances where we didn't get a couple of 
calls returned from the director, but aside from that, my staff 
and our emergency folks were in contact with the FEMA officials 
every day.
    Chairman Thompson. Thank you.
    Admiral Johnson, we have some 8,000-plus trailers in Hope, 
Arkansas right now. Those are new. I think there are some used 
ones, too.
    Can you tell me what statute prevents situations like the 
one in Dumas from getting new trailers, rather than the offer 
of used trailers? And what is it that this committee can do to 
facilitate freeing up any surplus property that we might have 
that a chief official like the governor here might request?
    Admiral Johnson. Yes, sir. Mr. Chairman, two points.
    First is that the Stafford Act prevents FEMA from providing 
trailers or housing units to states absent a declaration. In 
this case, the declaration was denied, and so FEMA was unable 
by the Stafford Act to provide the trailers at no charge to the 
state.
    Second is that the legislation also prevents FEMA from 
giving trailers to the state, particularly absent the 
declaration. And so what we did, and this is the first instance 
that we have been able to do this, is we worked through GSA. 
What FEMA can do is identify trailers that are in excess to our 
requirement. We work through GSA to provide those from FEMA to 
GSA, and then from GSA directly to Arkansas. So that is the 
mechanism that we used, and it took us a while to figure that 
out, and we wish we had done it sooner.
    Second, sir, is that the Stafford Act also prevents us from 
expending Stafford funds to transport trailers absent a 
declaration. And that was a proviso that we could make those 
trailers available to the state via GSA, but the state would 
have to pay for transporting those trailers and installing 
them.
    Chairman Thompson. So your testimony is all we have to do 
is modify those two provisions of the Stafford Act that would 
accommodate this particular situation?
    Admiral Johnson. That is correct, sir.
    Chairman Thompson. The other thing that so many members of 
Congress are having conflict is that with all those mobile 
homes at Hope, Arkansas, I guess we are the largest trailer 
park in America now. It would really help us if FEMA could come 
to Congress and propose a way of doing away with the trailers, 
because FEMA bought too many. I guess as long as those trailers 
are sitting unoccupied, that is a problem. If I am not 
mistaken, we are paying $25,000 a month lease on the property.
    So I guess the situation is, in emergencies when people 
need housing, 2 hours down the road are over 8,000 trailers. 
You are told, ``Well, we can't let you have them,'' and then we 
are told we will let you have a used one. That is a problem.
    So I would like your assurance that you and Director 
Paulison will work with us on getting rid of any of the 
encumbrances that prevents you from helping chief executives 
like Governor Beebe and others in times of emergency, where a 
disaster is not declared, but yet still there are opportunities 
where we can be helpful.
    If you will work with our staff, or if you would at least 
provide us with what prevents you from helping people when help 
is requested, we can then go from there.
    Admiral Johnson. Mr. Chairman, we would be pleased to work 
with your staff on a range of issues that could address this 
situation.
    Chairman Thompson. Thank you.
    Now I yield 5 minutes to the gentleman from Pennsylvania, 
Mr. Dent.
    Mr. Dent. Thank you, Mr. Chairman. Thanks for conducting 
this hearing.
    I have an opening statement that I will submit for the 
record. I would like to submit that.
    [The statement of Mr. Dent follows:]

 Prepared Statement of the Honorable Charles W. Dent, a Representative 
               in Congress From the State of Pennsylvania

    While disaster assistance is not under the jurisdiction of this 
Committee, we do have a strong interest in ensuring that the reforms of 
the Post-Katrina Emergency Management Reform Act of last year are 
implemented.
    This legislation, also known as the FEMA reform bill, strengthened 
and increased the authority for FEMA to prepare for, and respond to, 
terrorist attacks and natural disasters.
    The FEMA reform legislation clarified incident command structures; 
required establishment of a surge capacity force; created a pre-
positioned equipment program; and an improved logistics system.
    It also consolidated emergency communications, grant-making, and 
other responsibilities critical to emergency preparedness and response.
    This Committee has already held hearings and briefings to review 
the Department's implementation of the mandated reforms, and will 
continue to do so throughout the 110th Congress.
    While challenges remain, FEMA has improved its response capability.
    Today we have with us representatives of two States whose residents 
suffered the effects of terrible tornadoes.
    While both suffered the same type of disaster, the damage and 
destruction was quite different _ as was the level and type of Federal 
assistance.
    I look forward to discussing FEMA's statutory requirements 
regarding the provision of disaster assistance with Admiral Johnson.
    I would particularly like to discuss how FEMA assesses the 
capability of a State or local government to meet the response needs of 
its affected residents.
    I look forward to discussing this process, including Preliminary 
Damage Assessments, with both Governor Beebe and Alabama Emergency 
Management Director Bruce Baughman.
    It is my understanding that Arkansas has its own State disaster 
assistance fund.
    I am curious to hear how this fund is managed and how it is 
supporting the tornado victims.
    I understand that Mr. Baughman previously served as FEMA's Director 
of Operations and was with the agency for 24 years.
    I look forward to hearing his thoughts on FEMA's recent performance 
and its efforts to address the shortcomings of the past.
    Thank you, Mr. Chairman.

    Mr. Dent. Vice Admiral Johnson, I know you didn't get a 
chance to complete your testimony, but I had a few questions 
for you nonetheless. What is the general timeframe for FEMA 
officials to arrive at a location impacted by a storm or some 
other event?
    Admiral Johnson. In this case, sir, the tornado actually 
hit in Arkansas about 2:53 on a Saturday afternoon. By 0800 the 
following morning, FEMA had a representative in the state 
emergency operations center. On that same day, FEMA had two 
representatives arrive in the state, one that was an expert in 
public assistance, and the second an expert in individual 
assistance. And then they did join with the state Office of 
Emergency Management to begin conducting preliminary damage 
assessments on the day following the incident.
    Mr. Dent. So within a day, you had people in Arkansas.
    Admiral Johnson. And that is typical. As Mr. Baughman 
commented, we are very quick to reach out by phone to the 
state, make a connection, have a FEMA representative in the 
state emergency operations center and provide assistance as 
quickly as possible.
    Mr. Dent. And you provided some kind of preliminary damage 
assessment at that time when you got there, within that day?
    Admiral Johnson. Yes, sir, we did. Those are led by the 
state. It is a joint PDA led by the state. They conducted that 
and they finished that in 1 day.
    Mr. Dent. How did this differ? How did FEMA's response--how 
did that differ from the experience in Alabama?
    Admiral Johnson. The response was different in that in 
Alabama, there was a presidential declaration that was 
approved. With a declaration approved, that opened the Stafford 
Act and that allowed FEMA to provide more resources as we 
always do in an instance where there is a declaration.
    In this case, as the governor indicated, it took a long 
time to arrive at ``no.'' And part of the reason for that is 
that we were going back and forth with our own staff and back 
to the state to get a little bit more information, trying to 
see if we could get to ``yes.'' We could probably have arrived 
at ``no'' sooner and to provide the governor with a more direct 
answer perhaps would have been more helpful in a number of 
areas. But we typically respond to these declarations as 
quickly as possible.
    Mr. Dent. And I guess the question is, so what types of 
information is FEMA looking for when you are going to recommend 
to the president whether or not to make a disaster declaration? 
What was the difference between, say, an Arkansas and an 
Alabama application?
    Admiral Johnson. Yes, sir. While I don't want to fixate on 
just a single metric that is perhaps illustrative, in the area 
of damaged homes, a major damage to a home or destroy a home, 
is one of the metrics that we use in looking at individual 
assistance. In the issue in Arkansas, there was a total of I 
believe it is 37 homes that were destroyed and 25 that were 
major damage(a total of 62. There were twice that number in 
Alabama, and three times that number in Georgia.
    We also look at the amount of insurance, and the insurance 
rates were very much different between the three states. And so 
again, as I list a number of criteria, in totality it was our 
judgment, our view from the preliminary damage assessments, 
that for the thresholds that we have for individual assistance, 
that the request of the state did not reach that for federal 
assistance.
    Mr. Dent. Okay. Maybe just, help me again, but the role of 
the state--explain the role of the state to me in the damage 
assessment process. I am just trying to make sure I understand 
this.
    Admiral Johnson. Yes, sir. The preliminary damage 
assessments are a standard practice. They are required to help 
arrive at information that we both have transparent and share 
the information. A preliminary damage assessment team is led by 
the state. It typically is comprised of a state representative, 
a FEMA representative, a member from the Red Cross, a member of 
the Small Business Administration, and a person from the local 
community. In this case, they arrived and were joined halfway 
through the process by Mayor Hill of Dumas who helped guide 
them through that process.
    It is a standard procedure. They go in with experts who can 
assess the damage. They are looking, again, for minor damage, 
major damage, houses destroyed, impact on infrastructure. They 
are looking at the extent of damage, whether it is in a 
compressed area or a wide area--and just a fairly good set of 
criteria, both in terms of individuals, public property, 
private property, to get a whole sense for the damage and 
magnitude of the storm.
    Mr. Dent. Okay, my final 30 seconds here, how many requests 
for declarations does FEMA typically receive in a year? And how 
many of those requests would be granted and how many would be 
denied? Do you have an idea on that?
    Admiral Johnson. I don't have that information with me. 
Rather than guess, I can provide it to you.
    Mr. Dent. Okay. Thank you. We would appreciate receiving 
that.
    With that, Mr. Chairman, I yield back. Thank you.
    Chairman Thompson. Thank you very much.
    We have two colleagues from Arkansas who have particular 
interest. If I can get unanimous consent from our members to 
allow them to ask questions, it would be much appreciated. 
Without objection.
    Mr. Ross, if you have questions?
    Mr. Ross. Questions or an opening statement? Which?
    Chairman Thompson. It is up to you.
    Mr. Ross. Okay.
    Chairman Thompson. Questions for 5 minutes.
    Mr. Ross. Let me direct a question to Admiral Johnson.
    You mentioned that FEMA worked with the mayor in Dumas. In 
Arkansas, we have county judges. They are not attorneys. In 
some states they are called county supervisors, some are called 
county administrators, some are called county executives.
    You used the guy that in this instance helped lead the 
cleanup after the tornado, and of course the tornado knows no 
city limit boundaries. In fact, one of the most devastated poor 
communities was the Backgate community outside Dumas. The 
county judge, the county supervisor has indicated that no one 
from FEMA ever contacted him.
    So my question to you is, why didn't they? And since they 
didn't, was the rest of the damage outside the city limits of 
Dumas taken into account?
    Admiral Johnson. Congressman, my information is that the 
PDA team met with Mayor Hill. I use that as illustrative of the 
fact that PDA teams typically consist of local members as well. 
I can't confirm or deny that FEMA met with the county 
officials.
    What I can say is that the preliminary damage assessment 
team is led by the state. At the conclusion of the PDA, at the 
end of the day, the state saw all of the information that was 
collected. The state was satisfied, as indicated to us, at the 
damage information that was collected, and we have heard 
reports back since then that the state officials were satisfied 
with FEMA's response and our engagement with them and with 
local officials.
    Mr. Ross. Let me ask you this, you indicated that you had 
FEMA officials on the ground on Sunday. The Arkansas Department 
of Emergency Management has indicated to me that FEMA had 
people on the ground on Monday. Which was it?
    Admiral Johnson. The information I have is that we had a 
representative in the state operations center on Sunday.
    Mr. Ross. We have the director of the Arkansas Department 
of Emergency Management sitting behind you, sir, and he is 
nodding his head. Led the record reflect he is nodding his head 
in the negative.
    Let me explain something to you, Mr. Deputy Director. Here 
is the frustration. I understand the requirements for a federal 
disaster, and if you want me to believe that 800 people out of 
work, 150 homes destroyed, no power for 6 days, and the 
National Guard being called out for a week, qualifies as a--
let's see, how did your FEMA spokesman John Philbin said, ``The 
damages or need for federal assistance are not readily 
apparent.''
    I mean, if that is not readily apparent, then I don't know 
what is and I am not sure why we are even in the business of 
emergency management from a federal perspective, if that is how 
we are going to treat communities.
    My biggest concern, though, is not the lack of a federal 
declaration. My concern, and what I have trouble explaining to 
my constituents, who drive down U.S. Highway 278 from Hope to 
Nashville. They see 8,420 new, never-used, fully furnished 
mobile homes that were purchased in 2005 for Hurricane Katrina 
victims that never got to them either, and they are just 
sitting there. Not to be confused with the camper trailers, 
some 20,000 of those are coming back now where they are being 
refurbished and stored for future disasters. That makes sense. 
That is being a good steward of the taxpayer's dollar.
    My problem and my constituents' problem is if you have 
8,420 never-used, brand new, fully furnished mobile homes 
sitting in a cow pasture in Hope--and Mr. Chairman, you 
indicated they are paying $25,000 a month to store them there, 
and that is just the cost to store them there. Their operation 
down there has become quite a bureaucracy and costs about 
$250,000 a month total, counting the security they have there 
and all of that.
    My concern is if there are 8,420 of these things sitting 
there, these mobile homes sitting there that have never been 
used, and we have 150 homes that are totally destroyed or 
heavily damaged 160 miles away, and we can't use those homes to 
help the people in Dumas and Desha County, my question for you, 
sir, is: Will they ever be used to help people?
    Admiral Johnson. Congressman, those trailers are available 
and they are used when we have a disaster. While you refer to 
those that are specifically in Hope, throughout the past year, 
whether it was in Tennessee, whether it was floods in New 
England, there are a number of declarations where we have had a 
disaster where we have provided new trailers.
    So that is an inventory. It did accumulate following 
Katrina. And as the chairman asked, and as we will do, we will 
meet with him and identify to him what are plans are right now 
to begin to reduce that inventory. But those are available, and 
as I indicated, they are available primarily that we can't 
provide them without a declaration.
    We have found a way, and by the way, those units that were 
provided, while we use the term ``used,'' those were fully 
mission-capable units, and all the reports that we have back 
from the state are, number one, is that we provided every 
trailer and mobile home that they asked for; and number two is 
they were quite satisfied with the quality of the trailer 
provided.
    Chairman Thompson. Thank you very much. The time for the 
gentleman has expired.
    Governor, I know you are going to have to excuse yourself 
at some point. We want to thank you for coming. At whatever 
point during this hearing you depart, we know you have other 
business to take care of.
    If there is other information you think we might need for 
the record, I want you to feel very comfortable in providing 
the committee with that information. I assure you the goal of 
this committee, as well as others here, is to do as much as we 
can for whatever state that is in an emergency situation.
    Again, thank you for your testimony.
    Governor Beebe. Mr. Chairman, thank you, and thank you for 
accommodating us. You have been most gracious, and I am very 
grateful. Thank you.
    Chairman Thompson. Thank you.
    We will now hear from Mr. Bilirakis of Florida for 5 
minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it 
very much.
    Admiral I wanted to thank you, first of all, for the quick 
response to the devastating tornadoes in the state of Florida. 
But we are here today, we want to talk about Arkansas and other 
states that haven't received the kind of response that my state 
has.
    One question: Should FEMA's threshold for providing 
assistance to states after disasters be revised?
    Admiral Johnson. That is a good question. FEMA continues to 
evaluate our processes. We certainly will evaluate the results 
of this hearing. As the chairman suggests, we will meet and 
talk about where we are with our current inventory of trailers, 
and we will look at the process as we go through it.
    Over the years, we have made adjustments to the process to 
be more practical and to be more responsive to states and 
responsive to victims in need. But we also want to make sure 
that we are consistent as we apply those parameters across all 
disasters and all locations regardless of the cause.
    So we want to balance how to respond in an individual 
incident, and how to respond from a national perspective. But 
we are certainly open to continue to listen and engage with 
states, engage through NEMA and other associations to look and 
examine how we implement the Stafford Act and interpret and 
apply the regulations.
    Mr. Bilirakis. Okay. Next, what steps can state and local 
officials, as well as residents, take to better prepare for 
these events, these disasters?
    Admiral Johnson. Sir, as you know from Florida, there is a 
significant emphasis on personal preparedness. I think you saw 
examples of personal preparedness in Arkansas, just as you saw 
it in Florida and in Georgia and in Alabama. Certainly having 
insurance, for example, is one of the elements in terms of 
preparedness.
    In terms of other things, individuals, the generosity that 
we are seeing, as the governor mentioned, in Arkansas, helping 
each other out. That is always good to see. I think in terms of 
dealing with state and locals, the issue, for example, of 
availability to conduct preliminary damage assessments, to have 
a good, common perspective on what the damage is, to be 
transparent in the information that we share, and to 
communicate as often as we do between FEMA and the state Office 
of Emergency Management(all of those are very helpful to 
arriving at a conclusion that surprises no one.
    Mr. Bilirakis. Okay. Next question. Governor Beebe in his 
written testimony suggested that Arkansas's budget surplus was 
the reason they were denied the FEMA assistance. Was this a 
factor? If so, how much emphasis does it have on the decision-
making process?
    Admiral Johnson. Well, it is unfortunate that issue was 
raised in the media, then raised by a FEMA employee. But in the 
declaration process, that was not an issue. I talked personally 
to people on the declaration staff. There was no discussion 
whatsoever in evaluating their request for a declaration based 
on the size of the state surplus.
    Mr. Bilirakis. Okay, thank you.
    One more question for Mr. Baughman. Generally speaking, are 
there any measures FEMA or states can take to enhance their 
working relationships?
    Mr. Baughman. With FEMA?
    Mr. Bilirakis. Yes, correct.
    Mr. Baughman. Absolutely. What we do if we have a rigorous 
exercise program where we interface with FEMA staff almost on a 
monthly basis. As a matter of fact, Admiral Johnson will be 
coming hopefully down to our governor's workshop on hurricane 
scenario to walk through that so they understand what our 
requirements are. So routine exercises, but again, we have had 
a lot of experience with real-world disasters--six in the last 
4 years has given us a lot of experience also in working with 
the FEMA staff.
    Mr. Bilirakis. Okay, thank you very much.
    Thanks, The Chairman. I appreciate it.
    Chairman Thompson. Thank you very much.
    We will now recognize the gentleman from Arkansas, Mr. 
Berry.
    Mr. Berry. Thank you, Mr. Chairman. I thank the committee 
for allowing us to be part of this.
    My first question would be to you, Admiral Johnson, or to 
Mr. Baughman. How long did it take the president after the 
event in Alabama occurred to declare a presidential disaster?
    Mr. Baughman. The event occurred around noon, 1 o'clock on 
Thursday, and by 9 o'clock on Saturday morning, we had a 
declaration.
    Mr. Berry. From the president.
    Mr. Baughman. From the president.
    Mr. Berry. Admiral Johnson, you said that you have these 
criteria. Who sets those criteria?
    Admiral Johnson. Some of those criteria are listed in the 
Code of Federal Regulations.
    Mr. Berry. No, I said who sets them? Who makes those? The 
Congress doesn't do that, does it?
    Admiral Johnson. Right. FEMA drafted the regulations. There 
is a regulatory process that you are familiar with, and those 
criteria are identified in the Code of Federal Regulations.
    Mr. Berry. So FEMA sets them. Is that right?
    Admiral Johnson. That is correct. They are set by FEMA.
    Mr. Berry. Is there a provision in there for waivers?
    Admiral Johnson. Yes, sir, there is.
    Mr. Berry. So you could waive these provisions?
    Admiral Johnson. We could.
    Mr. Baughman. Under unique circumstances, there is a 
provision for waiver. Now, keep in mind that the criteria, 
there is a criteria for declaration for the public assistance 
program, but not one for the individual assistance program. 
That is what I think was more problematic on this one is there 
is no fixed criteria. I think the argument against fixed 
criteria over the years is, then, is there a provision for 
waiver. I think probably the time has come for a fixed criteria 
for declaration for the individual assistance program.
    Mr. Berry. How many jobs were lost in Alabama?
    Mr. Baughman. What we have is what is called the ``disaster 
unemployment process.'' We are in the process of taking those 
applications right now. So I can't give you, Congressman--
    Mr. Berry. You can't even guess?
    Mr. Baughman. Pardon me?
    Mr. Berry. You can't even guess?
    Mr. Baughman. I can't. No, I can't, because again, direct 
result, we had no major factories, no major industry. The 
largest thing that was hit was the school. The school is back 
in business. So we didn't have a major loss of any jobs.
    Mr. Berry. I can tell you this, I was at the White House 
and I was a member of Congress when James Lee Witt ran FEMA. 
The way you run it today, Admiral, is a damned disgrace. You 
ought to be ashamed of yourself. We didn't run FEMA like that 
when FEMA was run like it is supposed to be done. You all 
should be ashamed of yourselves. Maybe you help some people, 
maybe you don't. It shouldn't be an arbitrary decision. And you 
are going to have to live with that, not me, not my colleagues.
    This little area that was hit in South Arkansas, I don't 
represent that district, but I can tell you it is just across 
the river from me, and they are very special people to me. It 
is heartbreaking to see the way that they were treated. I went 
through this in my district last year. FEMA came. It would have 
been better if they hadn't come, because they are nothing but 
an aggravation when they get there.
    I know the gentleman from Alabama testifies to a different 
tale. But let me tell you what the people where I live are 
saying about you right now in the coffee shops up and down the 
street on Main Street, and when they run into each other at the 
post office. FEMA denied assistance to Desha County because 
they vote Democratic. They vote for Democrats. They elected a 
Democratic governor in the state of Arkansas in November, and 
that is the reason.
    I would like to see any and all communications that FEMA 
had with the White House, with anyone in the administration or 
anyplace else that had anything to say or do about how or when 
or whether or not this declaration was made.
    What do you have to say about that, sir?
    Admiral Johnson. Congressman, I regret that your view or 
the view of some of your constituents is that FEMA is not 
helpful. I believe that every person in FEMA, all 12,000 either 
permanent or temporary employees of FEMA, are dedicated to 
doing their job in a conscientious way to help people. I 
believe that we respond that way consistently across the nation 
in disasters.
    In this instance, there was no declaration, but that 
doesn't mean that FEMA people don't also have some sense of 
empathy and sympathy for the people who are impacted by a 
disaster. So I believe your characterization of FEMA as an 
agency and FEMA as a face of the federal government to not be 
completely accurate.
    Mr. Baughman. I would also like to respond to that, because 
I spent many years working for James Lee Witt. As a matter of 
fact, he is the one that promoted me as a senior executive. The 
same criteria that James Lee Witt has used for a declaration is 
still in use. What has happened with FEMA is Dave Paulison has 
just taken over.
    Mr. Berry. He has been there a year.
    Mr. Baughman. Well, he has been there a year sir, but there 
are some things to change an organizational culture.
    Well, James Lee Witt will tell you after he took over, it 
took about a year-and-a-half to turn the agency around. He told 
me that personally. And I think it has taken Dave Paulison some 
time to turn it around. I understand your frustration, sir.
    Mr. Berry. Well, I can tell you this, this ain't my first 
rodeo either. I was there when James Lee Witt took over. And 
when we had the 1993 flood in the summer of 1993, I am sure you 
remember that. And the response that we had to the 1993 flood 
was infinitely better than what FEMA had to an isolated 
situation in the country that just happened once. It didn't 
cover the whole Upper Mississippi Valley. And we did a better 
job with that. And I was in the Clinton Administration at that 
time. We did a far better job with the flood than you did with 
the tornado in one county, or than FEMA did.
    So don't try to tell me I don't know what I am talking 
about. I don't care how long you worked for FEMA or anything 
else, because you done picked the wrong dude to correct here.
    Mr. Baughman. Yes, sir. All I am saying is that our 
experience(
    Mr. Berry. All I am saying is that FEMA is an incompetent 
bunch of nincompoops that simply cannot run their agency.
    Chairman Thompson. Thank you very much.
    The gentleman's time has expired.
    We will now to go Mr. Cuellar, the gentleman from Texas.
    Mr. Cuellar. Thank you, Mr. Chairman.
    Admiral I want to follow up on what the chairman talked 
about, because I agree with him. We want to see from you all if 
you all can give us some suggestions as to what changes we 
ought to make.
    Under the Stafford Act, a state may apply for two types of 
declarations. One is the major disaster declaration, and the 
other one is an emergency declaration. There are certain 
elements that must be satisfied, and I would ask you all to 
look at those elements when you respond to the chairman, and 
then, of course, the parts of the rules that you all have also 
issued out.
    The reason I am saying that is because I think what we are 
looking at is how do we best use in an efficient way the 
resources that we have? I assume we are all in agreement that 
the statement that the DH Inspector General Richard Skinner 
made that it is obvious that FEMA purchased manufactured homes 
in excess of housing needs during the hurricanes that we had. I 
think we are all in agreement with that.
    I think what you are seeing is some members are seeing 
this. For example, there are 12 staging areas across the 
country where we have those trailers. Is that correct?
    Admiral Johnson. That is correct, sir.
    Mr. Cuellar. Right. And one of them, of course, is the 
well-publicized one that we have in Hope. In 2006, FEMA spent 
about $47 million to store and maintain those homes. Is that 
correct?
    Admiral Johnson. That is generally correct, sir, yes.
    Mr. Cuellar. Okay. And Dumas, or should I say in Hope, that 
staging area currently has somewhere between 8,000 to 9,000 
units that we have.
    Now, in looking at those excess units that we have, my 
understanding is that excess units are being auctioned off to 
the general public through GSA. Is that correct?
    Admiral Johnson. That is correct, sir. Let me just point 
out that at Hope we have what we call an operational inventory, 
and those are either new or refurbished units that are fully 
mission-capable. And those units are not being auctioned off by 
GSA.
    We also have what we call a disposable inventory. Those are 
units that have been used, some several times in various 
disasters. They are not in a good state of repair, and in our 
assessment will require more than $1,500 to make them fully 
mission-capable. So it doesn't make good use of the taxpayer's 
dollar to fix those units. It is that inventory that is about 
40,000 units that are being sold, excessed or sold through GSA.
    Mr. Cuellar. My understanding is that GSA has sold more 
than 6,000 housing units since the beginning of the fiscal year 
2005. Is that correct?
    Admiral Johnson. I don't have those numbers in front of me, 
but that sounds about accurate.
    Mr. Cuellar. Okay. Which has brought in in excess of $50 
million to the government, but when you look at the costs that 
we used to purchase the homes, and what we are getting now, I 
guess what I am trying to emphasize is that we have homes that 
are being auctioned off at very reduced price.
    At the same time, what we are seeing is we are seeing 
situations here where you get members, and you can see the 
Arkansas delegation here that is a little frustrated, and what 
I want to do is I want to join the chairman and ask you to 
please look at those elements under the Stafford Act, because 
certain things have to be met before the president can declare 
that.
    At the same time, we have those assets that are available. 
So what I would ask you, and I am joining the chairman to ask 
you to please review those elements of the Stafford Act, look 
at your rules and regulations, and ask us if you can sit down 
with us to tell us what changes we can make to provide you that 
flexibility, what I call flexibility, so we can help address 
some of these situations that we are seeing before this 
committee at this time.
    Admiral Johnson. Mr. Cuellar, I think that is a very 
objective request, and we certainly we want to do that.
    I would just like to point out, and I have read these media 
reports as well, we are all familiar with our automobiles about 
what depreciation is. Depreciation is quite a bit higher for 
mobile homes, and they are even higher for mobile homes that 
have been used by people who don't really own those homes, and 
in some cases maintained them with less than the quality you 
would expect of something that you owned.
    And so in reality, when you look at the original purchase 
price of that motor home, the time that it has been used and 
its condition, I think our return on that investment is still 
something that perhaps it not appreciated by the media.
    Mr. Cuellar. No, and I understand. What is the cost of an 
average mobile home that you have there?
    Admiral Johnson. Some of those were like $18,000, but some 
were less, those that were the stock model that we bought, 
based on just the standard. We actually have a couple of 
different varieties. When Katrina first happened, we thought we 
would have to house a large number of people, and we actually 
bought them right off of the lots of some motor home sales. So 
those were higher quality and cost more.
    Mr. Cuellar. I understand. I am familiar with this, that 
once the mobile home is taken off the lot, it depreciates right 
away. I understand that. All I am saying is, I want to join the 
chairman as to say that there are certain elements in the 
Stafford Act, there are certain rules that you have. We are 
just saying, work with us to come up with some language to 
address this type of situation.
    Admiral Johnson. Yes, sir. That is a very good request. We 
will be glad to do that.
    Mr. Cuellar. Thank you, sir.
    Chairman Thompson. Thank you very much, Mr. Cuellar.
    Consistent with that, as I understand, I had made an 
earlier request on documenting FEMA's emergency housing life-
cycle costs, including contracts for the hauling and installing 
of these units. And that response was due on the 28th of 
February. I want to remind you, Admiral, that we are still 
looking for it, and that is consistent with some of the things 
Mr. Cuellar was asking for, too.
    Admiral Johnson. Yes, sir, Mr. Chairman. We will get that 
response to you.
    Chairman Thompson. Thank you.
    The gentleman from Pennsylvania, Mr. Carney.
    Mr. Carney. Thank you, Mr. Chairman. Thank you for holding 
this hearing. I think it is important we shed light on these 
issues, and get them out in the open.
    Admiral the committee learned that prior to the lease with 
FEMA at the Hope site, a farmer was paying about $5,000 for 
that land, to lease that land. And now we are paying about 
$300,000 a year for that land. Are those numbers right? Do you 
know?
    Admiral Johnson. I don't know that to be true, sir. I will 
have to get back to you on that.
    Mr. Carney. Yes. I hope it is not true. I hope we not 
paying $295,000 more than we need to to put trailers on there. 
But yes, please, I would look forward to that answer. Thank you 
very much.
    Mr. Baughman, I have questions for you, actually. You have 
20 years combined experience in emergency management at the 
federal and state level. I think that is great. What 
recommendations, based on that experience, would you have to 
change the way the disaster declaration process works?
    Mr. Baughman. The chief one is thresholds for the 
individual assistance program. For years, FEMA resisted setting 
thresholds. Some years ago, they came out with thresholds for 
declarations for the public assistance program. They don't have 
similar for the individual assistance program. I would like to 
see some set thresholds. That way a state knows whether they 
have enough to qualify. And again, there are conditions that 
could be waivered.
    Also, in an emergency declaration, there are some unique 
federal assets such as a travel trailer that it used to be that 
you could do an emergency declaration to turn that on. Let's 
say that it was a unique federal DOD piece of equipment that 
you needed, then in fact you could do an emergency declaration 
just to provide that piece of equipment. But that still can be 
done, so I would like to see that used. I think that that could 
be used more often.
    Mr. Carney. I appreciate that. Unfortunately, in my 
district we had a couple of 100-year floods in the last couple 
of years. For one reason or another, initially the White House 
decided not to declare the disaster area after the most recent 
event. But after reassessment, they decided to declare a 
disaster area. How can we regularize this whole process? I 
think it is something we really need to focus on.
    Mr. Baughman. Yes, again the preliminary damage assessment, 
by having fixed thresholds, I think that you will at least know 
you are approaching that or not. We have had two tornadoes in 
the state of Alabama within the last 2 years that we knew 19 
insured homes weren't going to qualify, so we didn't ask. But 
again, when it starts getting up to around 40 or 50 homes, you 
just don't know. Do you ask? Don't you ask?
    What takes longer is if you are in a ``marginal'' state, it 
takes longer to ring that up because FEMA wants to make sure 
they have all the data before they turn you down.
    Mr. Carney. Ordinarily, how long does it take to get that 
data?
    Mr. Baughman. Well, it depends on how widespread the damage 
is, how much insurance recoupment--a lot of the variables that 
Admiral Johnson was talking about. It depends on how fast those 
preliminary damage assessment teams can gather that data. In 
our particular case, we got an immediate declaration for Coffee 
County only.
    We did not add on the additional five counties until the 
following Tuesday. So that is 4 or 5 days later, but we needed 
to gather the information. For example, Wilcox County, while 
there were 76 homes that were damaged, most of those were 
insured; 50 of those were secondary homes. They were not 
primary residences.
    Mr. Carney. Okay. Thank you for your answer. I appreciate 
it.
    I yield back, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    Mr. Baughman, let me just say how very impressed I am with 
your knowledge of just disaster preparedness and response. You 
do the state of Alabama great credit. I saw that you cut your 
teeth in Mississippi, so let me just say you do us well, too.
    Mr. Ross, do you have another question? Anything you want 
to add at this point?
    Mr. Ross. I would like to, if I could just in a few brief 
moments, Mr. Chairman, for the record and for your benefit 
share with you my thoughts on the situation and why I want to 
try to effect change here.
    On February 27th, 3 days after the storms hit, the governor 
requested a federal disaster declaration from FEMA. Later that 
day, I led a conference call with Director Paulison and 
expressed my support for the governor's request, as well as 
requested that FEMA transfer some of the 8,420 new fully 
furnished and never used manufactured homes located just 3 
hours away at the so-called FEMA staging facilities in Hope, 
Arkansas, to the families in need. These homes were originally 
purchased for Hurricane Katrina victims, but never made it to 
them either.
    However, help did not come that day. In fact, for the next 
7 days, I pleaded with FEMA officials to help this poor delta 
community. Finally, 12 days after the tornadoes destroyed parts 
of my district, and 9 days after the governor's request, we 
finally received a response from FEMA. FEMA said no. They 
denied the state's request. As a result, the state, county and 
city are now responsible for 100 percent of the storm cleanup 
expenses and were not allowed to receive even one of the new 
never used mobile homes FEMA has stored in Hope since 2005.
    But after 13 days of waiting, working and prodding to the 
point of our story becoming national news, FEMA finally offered 
to give the state of Arkansas 30 used and/or refurbished mobile 
homes and trailers from the staging facility in Hope, if the 
state would pay to transport them and set them up for victims 
who remain homeless for 2 weeks.
    The people of Dumas were grateful to receive them. In fact, 
I would like to share part of an email I recently received. It 
goes like this: ``I am a tornado survivor in Dumas. While my 
husband and I have the means to take care of our own housing, I 
am fully aware that there are some who cannot. I am a 
schoolteacher to many of the Hispanic families who received 
trailers this weekend. You have no idea how much this has made 
an impact on these students. They came into school this morning 
with bright smiles on their faces, saying 'I got a new house.' 
''
    Mr. Chairman, that is why you and I do what we do. And it 
is why FEMA needs to do what they should do. I am frustrated 
with the massive bureaucracy involved in simply helping people 
in an emergency situation, which is what FEMA is supposed to be 
in the business of doing. It is astounding to me that for 13 
days, hard-working families in my district had nowhere to live, 
and yet 160 miles away, also in my congressional district, 
8,420 new fully furnished never used mobile homes sat 
untouched.
    I want to use this hearing as an opportunity to improve 
this process for the next town that is forced to deal with a 
natural disaster that might not be declared a federal disaster 
by FEMA.
    Mr. Chairman, I want to work with you and this committee to 
enact legislation to empower FEMA, or maybe some other federal 
agency, to distribute the surplus homes in a timely manner to 
the people who so desperately need them in the direct aftermath 
of a natural disaster, whether declared a federal disaster or 
not. Homeless people remain homeless until they get some help.
    As my constituents drive down U.S. Highway 278 from Hope to 
Nashville, they still see 8,420 new mobile homes sitting there 
untouched and never used, when storm victims remain homeless. 
To them, these homes are a symbol of why our citizens have lost 
faith in FEMA and feel that our government is failing them.
    My question for FEMA is this: Are these 8,420 new fully 
furnished never used mobile homes going to be used? Or is FEMA, 
in its rules and regulations and red tape, going to continue to 
keep them from ever being able to get these homes to needy 
communities like Dumas, Arkansas?
    I believe that we owe it to the people of Desha County and 
so many other communities who are devastated by natural 
disasters to change the system. I am optimistic that this 
hearing is a first step in the right direction, because Mr. 
Chairman, on February 24th, a tornado struck Dumas, Arkansas. 
The next one could very well be in your district or mine or any 
other member of this panel.
    I think it is important we find a commonsense solution to 
this problem and put these mobile homes to use to help storm 
victims. They are not doing anybody any good sitting in a hay 
meadow at the airport in Hope, Arkansas.
    Thank you, Mr. Chairman, for including me today.
    Chairman Thompson. Thank you very much, Mr. Ross. Your 
statement will be entered into the record.
    Chairman Thompson. Mr. Baughman, I understand you have a 
flight to catch. We don't want to detain you again. We 
appreciate your testimony before the committee. I am sure 
somewhere you will be hearing from us, and keep doing the good 
work. Thank you very much.
    Mr. Baughman. Thank you, Mr. Chairman.
    Chairman Thompson. Mr. Etheridge, would you like to ask 
questions for 5 minutes?
    Mr. Etheridge. I would, Mr. Chairman. Thank you.
    Admiral I guess it will just be you and I here for just a 
minute. Thank you.
    Let me, if you would, expand a little bit on the issue of 
availability of state resources as a factor. You said earlier 
it wasn't a factor in determining whether the president made a 
disaster declaration. But I want to talk about it a bit because 
I think it is important in this process, because I happen to 
know from my home state of North Carolina, where we are under a 
constitutional requirement to have a balanced budget.
    And even if we have money within our budget, and you have a 
disaster, there are a lot of other needs the state has, and 
states really don't have a choice in that. Depending on where 
you are, you are more likely to be hit than others. In our 
case, it is a hurricane, and we tend to feel like we are like 
the ``9-1-1'' state. Like Florida, we get hit.
    But it seems to me that in any case, a disaster is a 
disaster. I do hope you and folks in the department will come 
back with some suggestions, because I think today's testimony 
is some indication that some things need to be addressed.
    What I happen to believe is what really matters is no more 
than how many people have been harmed, and how all the 
resources we have--public, private, local, state and certainly 
federal--can be brought to help people who have a great need. 
They have lost their livelihood in a lot of cases. They have 
lost their homes. No matter what their home may be, it is their 
home.
    In some situations, I know recently in California the farm 
workers suffered an economic loss because of the severe freeze 
that was unusual, and a disaster declaration was made very 
quickly, because they had lost their jobs. I happen to think 
that was the appropriate thing to do. And I am glad they were 
able to get federal help and get it.
    I think the thing that concerns me is, I just hope North 
Carolina doesn't fall in the crack that my friends in Arkansas 
have, because I think an average thinking person would say, you 
know, we failed. We failed, because those people have a need. 
It is clear to me that people have a need, and the fact that we 
weren't able to help, then if it is a problem, we need to fix 
it, it seems to me.
    So my question to you is this: What makes this situation 
less a disaster and why, when there is a clear need, that we 
didn't try to find a way to bend over backwards, rather than--
you know, I learned a long time ago, you can sort of lean 
forward and help, or you can lean back and find reasons not to 
do it. It ought to be our job to try to find a reason to help 
people.
    I would appreciate your comment on that, because I think 
that is really part of our job. These are American people. They 
don't live overseas in the sands of Saudi Arabia or in any 
other place in the world. They are tax-paying Americans.
    I would be interested in that, sir.
    Admiral Johnson. Congressman, let me first say that when 
FEMA evaluates some number of potential disasters every year, 
and it is about 50 to 70 per year, and of those there are only 
about 8 to 15 a year on average that are denied. And so in 
large part, declarations that are requested are approved.
    Mr. Etheridge. Admiral, just a point, I noticed in 2004 
there were 68 major declarations, nine denials, and four 
appeals. In 2005, there were 48 declarations, 13 denials--it 
went up 44 percent, and the same thing happened in 2006--
substantial more denials. I am certain there is a reason for 
that.
    Admiral Johnson. Part of that, sir, is that we do think 
that, and Mr. Baughman makes an excellent point, that we do 
have very specific thresholds in public assistance, but we 
don't have thresholds in individual assistance. Part of that is 
the communication between FEMA and the state. When a state 
submits a declaration, in many cases it is a discussion as to 
whether the state thinks their declaration would be approved.
    All of the criteria that I have mentioned are well known to 
the states. There is no secret process. And so while there may 
not be a fixed threshold, the process is fairly well known. And 
so some of these numbers reflect the fact that states are 
considering when they request federal assistance.
    Mr. Etheridge. Are you telling me it is a moving target?
    Admiral Johnson. No, sir. What I am saying is that in 
individual assistance, there is no set threshold. For example, 
there is a clear dollar amount pre capita in public assistance, 
and that is the way it is. But in individual assistance, it is 
a much--
    Mr. Etheridge. Admiral, do you have to have a declaration 
before you can get that?
    Admiral Johnson. That is the process. That is what you have 
to do to get the declaration. So that is the criteria we look 
at before we recommend either a declaration or a denial.
    Mr. Etheridge. Okay.
    Admiral Johnson. So there needs to be more communication. 
We need to work harder at identifying what the thresholds are 
in individual assistance.
    Let me also say that working in FEMA, it is not a heartless 
association. And so for example in this case, our director, we 
probably could have said ``no' sooner, but it was an exchange 
of information back and forth to our region to find more 
information, and was it possible to arrive at ``yes.'' We could 
have said ``no'' and waited for perhaps more information.
    For example, the gentleman from Pennsylvania, his state 
initially received a denial, but then subsequently in the 
appeal they provided much more information to us and allowed us 
to reach an approval of the declaration. So it is a process 
with the states.
    Mr. Etheridge. Mr. Chairman, I know I am overboard.
    Who has the authority to issue the waiver? Does FEMA do it, 
or does the president do it?
    Admiral Johnson. My understanding is that for the initial 
declaration, that that declaration is made by the president. If 
a declaration is approved, then the FEMA director has 
discretion, for example, to broaden the number of areas, 
counties that might apply for the declaration. He can extend 
the types of coverage once a declaration is approved. And he 
can extend the operational period for which damage can be 
considered for the declaration.
    Mr. Etheridge. Thank you.
    Chairman Thompson. Thank you very much, Mr. Etheridge.
    I thank all the witnesses for their valuable testimony, and 
the members for their questions. Sorry.
    Ms. Jackson Lee for 5 minutes.
    Ms. Jackson Lee. Thank you very much. Mr. Chairman, believe 
it or not, I am sitting in the hot seat because I am in the 
middle of a markup, but this was such an important hearing, and 
I am just going to be very brief.
    What I have been able to determine, Admiral, is this 
clearly needs a legislative fix. Those of us who I guess 
remained, my good friend Mr. Cuellar, who I know was here, the 
chairman and Mr. Ross, and certainly Mr. Etheridge, and many 
others on this committee are here because we are committed to 
securing the homeland. We recognize coming from areas that have 
had their long history of disaster, that we are frankly in the 
hot seat.
    And so we cannot imagine why it took 2 weeks to respond. I 
would simply ask you this question, because I really want to 
throw my hands up, but I also want to acknowledge that Director 
Paulison and the team has really worked. You have tried to do 
amends, if you will, for the horrific actions of Katrina. I 
recognize that. Let us be your partner, because people are 
suffering.
    And so what I would suggest that you do is what kind of 
legislative fix can we construct so that there is a backup to 
the actual declaration of disaster, particularly when you can 
move chairs around.
    Admiral you are the deputy over management operations. 
Would some sort of clarity, some sort of legislative fix be 
instructive and helpful in this effort?
    Admiral Johnson. Well, it certainly would. I appreciate the 
offer of the chairman to me, with the committee, to take the 
testimony today, both from Mr. Baughman and from the governor. 
We know we have had issues in the past in terms of when we do 
have a denial, and these are issues are raised again. It is a 
fair time to take a look at that.
    What is it that is the will of the Congress? How can we 
work better to inform a decision that will address the pain and 
suffering?
    Ms. Jackson Lee. If I may, because my time is short, I, 
too, agree with the chairman, but let me just say point blank: 
Would a legislative fix clarification help you?
    Admiral Johnson. That is correct. It would.
    Ms. Jackson Lee. Thank you very much.
    Mr. Chairman, thank you.
    Chairman Thompson. Thank you very much, Ms. Jackson Lee.
    Ms. Jackson Lee. I yield back. I ask unanimous consent my 
statement be made part of the record.
    Chairman Thompson. The admiral has already heard from Mr. 
Cuellar and Mr. Carney, a couple of us, talking about the need 
to collaborate on some fixes.
    Again, I want to thank the admiral and others who were here 
as witnesses for this hearing. The members of the committee may 
have additional questions for you, and we ask that you respond 
expeditiously in writing to those questions.
    Hearing no further business, the committee stands 
adjourned.
    [Whereupon, at 3:45 p.m., the committee was adjourned.]

                             For the Record

Prepared Statement of the Honorable Kevin McCarthy, a Representative in 
                 Congress from the State of California

    I am honored to serve on the Homeland Security Committee and I look 
forward to working with Chairman Thompson, Ranking Member King, and the 
members of this Committee to strengthen the security of our homeland.
    Today, we examine an issue important to my constituents and all 
Americans, our Federal Government's response to disasters. When the 
President makes a disaster declaration, FEMA's responsibility is to 
provide timely relief to those in need.
    I have personally seen how a positive response can affect a 
community. In 2003, I was having lunch in San Luis Obispo County in 
California, a county I currently represent, and felt the 6.7 magnitude 
San Simeon earthquake that led to the loss of life and damage to our 
communities. Even though I wasn't in Congress at the time, I know 
firsthand how important FEMA's response can contribute to people and 
communities getting back on their feet. FEMA opened up disaster 
centers, and provided timely information to help people get the help 
they needed. However, with the hurricanes in the Gulf Coast region, we 
have also seen how a FEMA response can suffer from bureaucratic errors 
and a lack of clear oversight and accountability.
    On the Homeland Security committee, we need to ask the important 
questions on how to ensure that FEMA's mission is exercised efficiently 
to those in need that will rely on its assistance after an emergency, 
as well as efficiently and fairly completing damage claims in the 
months or even years after a disaster. But we also need to be sure to 
clarify the mission of FEMA, and thus the scope of a federal response 
to any emergency, what the Federal Government will shoulder in the 
aftermath of an emergency, and what federal taxpayers expect the 
states, local governments, and Americans to be responsible for before 
and after a natural disaster.
    I thank the chairman for the time, and I yield back.
                               __________

  Prepared Statement of Wialliam ``Graig'' Fugate, director, Florida 
                    Divsion of Emergency Management

                               Regarding

               Preparedness for the 2007 Hurricane Season

                              May 15, 2007

Introduction
    Thank you Chairman Thompson, Ranking Member King, and distinguished 
members of the Committee for allowing me the opportunity testify before 
you on preparedness efforts for the 2007 Hurricane Season. I am Craig 
Fugate, the Director of the Florida Division of Emergency Management. I 
have over 25 years of experience in state and local emergency 
management, serving in various positions including ten years as the 
Emergency Management Director for Alachua County, Florida, Chief of the 
Bureau of Preparedness for the State of Florida, and the appointment to 
my current position in 2001. I continue to serve and have been 
reappointed to my position by Governor Charlie Crist. In my time with 
the State of Florida, I have served as the Governor's authorized 
representative for major disasters such as the 2004 Hurricane season 
including Hurricanes Charlie, Frances, Ivan, and Jeanne and coordinated 
the State Emergency Response Team (SERT)'s response for all Florida 
disasters and for state-to-state mutual aid for Hurricanes Katrina and 
Rita.
    Emergency management is built upon three very basic concepts: (1) 
All-hazards preparedness is the foundation in which readiness is built 
for all disasters regardless of the cause or size; (2) The emergency 
management cycle includes preparedness, response, recovery, and 
mitigation; and (3) All disasters are local. There are several key 
areas that I wish to discuss with you today that need to be addressed 
in order to secure our preparedness for all disasters:
        1. We must maintain an all-hazards approach to emergency 
        management;
        2. Funding for the Emergency Management Performance Grant 
        (EMPG) program should be increased, at least restored to FY 
        2005 levels;
        3. We need federal support of the Emergency Management 
        Assistance Compact (EMAC); and
        4. The FEMA Temporary Disaster Housing Program can be more 
        effective with a transition plan that includes HUD resources.

MAINTAINING THE ALL-HAZARDS APPROACH TO EMERGENCY MANAGEMENT
    All-hazards emergency preparedness is the key building block and 
foundation for emergency management. Natural hazards continue to be the 
pervasive disaster that occurs regularly. In the past several years, 
major disaster declarations were for events including severe storms and 
tornadoes, typhoons, tropical storms, multiple hurricanes, flooding, 
ice storms, snowstorms, and wildfires. Natural disaster preparedness 
must not suffer as a result of homeland security efforts, but rather 
should be viewed as the most frequent opportunity to validate domestic 
preparedness efforts and to also build best practices. We need to start 
looking at the system in terms of hazards preparedness. Furthermore, 
our emergency response system must be built for all-hazards and 
terrorism should be a component of the system. We cannot afford to 
build duplicate systems by hazard or to eliminate programs to support 
the homeland security effort. An all-hazards approach should be viewed 
as building a single team to deal with a large variety of hazards.
    Since I have been with the State of Florida, we have had had 22 
major disaster declarations, five emergency declarations, and 45 fire 
management assistance declarations. While hurricanes are the most 
urgent and prevailing threat we have faced, we do not prepare for 
hurricanes alone. Florida was the first state with anthrax cases in 
2001, the terrorists for 9/11 trained in Florida, we have three 
commercial nuclear power plant sites, host major sporting events 
including Superbowls, and boast three national championships in the 
past two years in college football (2006) and basketball (2006 and 
2007). We have extensive threats for tornadoes, flooding, fires, and 
severe freezing. You will recall the February 2, 2007 tornado that left 
21 people dead and destroyed hundreds of homes with more than $17 
million in federal assistance for victims. Additionally, we have done 
significant influenza pandemic planning for our large special needs 
populations and planning for mass migration incidents from the 
Caribbean.
    While every state may not experience a disaster every single year, 
preparedness is essential. Florida took the lead in ensuring that 
localities were prepared for any disaster when our state legislature 
made changes after Hurricane Andrew that a surcharge is set aside for 
emergency preparedness from every insurance policy written in the 
state. This fund called the Emergency Management Preparedness and 
Assistance Trust Fund, which exists only in Florida, helps us to ensure 
that localities have the necessary means to prepare for disasters and 
citizens do their part too. In addition, we utilize the only all-
hazards funding source, the Emergency Management Performance Grants to 
supplement these funds to build our key preparedness programs.
    Hazards need to be explored in the context of disasters too. A 
disaster is really caused by humans as a result of getting in Mother 
Nature's way. Humans build in harms way, we traditionally build at the 
cheapest costs, and we build power grids that are subject to wind 
damage. When we prepare for terrorism, we harden critical 
infrastructure and look for ways to prevent events. We develop strong 
public health systems and plans to address pandemics. However, 
addressing hazards before a natural disaster means stronger building 
codes, enforcing those codes, heeding warnings ahead of disasters and 
having business and family plans in place when disaster does occur. We 
have to begin looking at the complexities and scale of the consequences 
of hazards.
    The federal government must continue its commitment to ensuring 
national security through all-hazard preparedness. Without adequate 
numbers of state and local personnel to operate the all-hazards 
emergency management system, the infrastructure used to prevent, 
prepare for, respond to, and recover from all disasters will collapse. 
Unfortunately, Hurricanes Katrina and Rita illustrated the need for 
adequate emergency management systems from the ground up. Instead of 
making unbalanced investments towards terrorism preparedness, we must 
maintain an all-hazards approach and shore up the foundation of our 
response system for all disasters regardless of cause.

EMERGENCY MANAGEMENT INFRASTRUCTURE FUNDING
    EMPG is the only program for All-Hazards Preparedness
    Natural disasters are certain and often anticipated. Every state 
must be able to plan for disasters as well as build and sustain the 
capability to respond. EMPG is the only source of funding to assist 
state and local governments with planning and preparedness/readiness 
activities associated with natural disasters. At a time when our 
country is continuing long term recovery efforts from one of the 
largest natural disasters in history and making strides to improve the 
nation's emergency preparedness/readiness, we cannot afford to have 
this vital program be just maintained. EMPG is the backbone of the 
nation's all-hazards emergency management system and the only source of 
direct federal funding to state and local governments for emergency 
management capacity building. EMPG is used for personnel, planning, 
training, and exercises at both the state and local levels. EMPG is 
primarily used to support state and local emergency management 
personnel who are responsible for writing plans; conducting training, 
exercises and corrective action; educating the public on disaster 
readiness; and maintaining the nation's emergency response system. EMPG 
is being used to help states create and update plans for receiving and 
distribution plans for emergency supplies such as water, ice, and food 
after a disaster; debris removal plans; and plans for receiving or 
evacuating people--all of these critical issues identified in the 
aftermath of Hurricane Katrina and the following investigations and 
reports.

State and Local Match
    EMPG is the only all-hazards preparedness program within the 
Department of Homeland Security that requires a match at the state and 
local level. The match is evidence of the commitment by state and local 
governments to address the urgent need for all-hazards emergency 
planning to include terrorism. EMPG requires a match of 50 percent from 
state or local governments. According to the National Emergency 
Management Association's (NEMA) 2006 Biennial Report, states were 
continuing to over match the federal government's commitment to 
national security protection through EMPG by $96 million in FY05, which 
is an 80 percent state and 20 percent federal contribution. To bring 
all state and local jurisdictions up to the fifty percent level, $135 
million is needed. This would allow as many as 3,030 additional local 
jurisdictions to become part of the program. To bring non-participating 
jurisdictions into the program at the 50 percent level requires an 
additional $152 million.

EMPG Helps Ensure Personnel for Mutual Aid
    During the 2004 and 2005 hurricane seasons, the interdependencies 
of the nation's emergency management system were demonstrated and one 
of the success stories was the Emergency Management Assistance Compact 
(EMAC). EMAC enabled 48 states, the District of Columbia, the Virgin 
Islands, and Puerto Rico to provide assistance in the form of more than 
2,100 missions of human, military and equipment assets and over 65,000 
civilian and military personnel and equipment assets to support the 
impacted states. The estimated costs of these missions will exceed $829 
million. Of the personnel providing assistance through EMAC, 46,503 
were National Guard personnel and 19,426 were civilians. Many of the 
civilians sent to provide assistance are supported by the EMPG program 
in their state. The nature of the nation's mutual aid system vividly 
shows the need for all states to have appropriate capabilities to 
respond to disasters of all types and sizes. In Florida we used EMPG to 
build self-sustained response teams that are able to respond to 
disasters in our state and in neighboring states when called upon to 
provide assistance. The increased reliance on mutual aid for 
catastrophic disasters means additional resources are needed to 
continue to build and enhance the nation's mutual aid system through 
EMAC.

Appropriate Support Needed to Strengthen Program
    While EMPG received modest increases in 2003 and 2004 after ten 
years of straight-lined funding, the program needs to be adequately 
resourced based on building capacity. The increased flexibility of EMPG 
is offset by funding shortfalls estimated in the NEMA Biennial Report 
in 2006 to be over $287 million for all 50 states. The current total 
need is $487 million. The Post-Katrina FEMA Reform Act authorized EMPG 
at $375 million for FY 2008.
    Clearly, Congress wants to understand what is being built with 
these investments, especially in tight fiscal conditions. The 2006 
Quick Response Survey found that if states were to each receive an 
additional $1 million in EMPG funding for FY 2007, states would use the 
following percentages for each of the following activities: 88 percent 
of states responding would use the funding to support the update plans 
including evacuation, sheltering, emergency operations, catastrophic 
disasters and others; 83 percent would provide more training 
opportunities for state and local emergency preparedness and response; 
88 percent would provide additional preparedness grants to local 
jurisdictions; 69 percent would conduct more state and local exercises; 
and 61 percent would use funding for state and local NIMS compliance. 
(States were able to respond to multiple activities, as each state has 
multiple emergency preparedness priorities.)
    Last year's Nationwide Plan Review Phase 2 Report completed by the 
Department of Homeland Security found that current catastrophic 
planning is unsystematic and not linked within a national planning 
system. The report cites that, ``This is incompatible with 21st century 
homeland security challenges, and reflects a systematic problem: 
outmoded planning processes, products, and tools are primary 
contributors to the inadequacy of catastrophic planning. The results of 
the Review support the need for a fundamental modernization of our 
Nation's planning process. The report goes on to explain that all 
states do not adequately address special needs populations, continuity 
of operations, continuity of government, evacuation plans, and resource 
management. EMPG is the ONLY source of funding that can address these 
significant and immediate needs. The current EMPG shortfall does not 
take into account these findings.

BUILDING OUR NATION'S MUTUAL AID SYSTEM THROUGH EMAC
    The response to Hurricanes Katrina and Rita resulted in the largest 
deployment of interstate mutual aid in the nation's history through the 
Emergency Management Assistance Compact (EMAC). As mentioned 
previously, EMAC deployed personnel comprised of multiple disciplines 
from all member states to respond to Louisiana, Mississippi, Alabama, 
Florida, and Texas. The process enabled National Guard, search and 
rescue teams, incident management teams, emergency operations center 
support, building inspectors, law enforcement personnel, and other 
disciplines to immediately assist the requesting states in need of 
support. The National Guard even chose to continue under EMAC when 
deployed under Title 32 because of the organization, liability 
protections, accountability, and tracking abilities EMAC provides.
    EMAC was created after Hurricane Andrew by then-Florida Governor 
Lawton Chiles. The system was developed through the member states of 
the Southern Governors' Association to establish mechanisms to enable 
mutual aid among member states in emergency situations. The Southern 
Regional Emergency Management Assistance Compact (SREMAC) was signed by 
participating Governors in 1993. Following recognition of SREMACs 
nationwide applicability by the National Governors' Association and 
FEMA, Congress enacted EMAC in 1996 (P.L. 104-321). Currently all 50 
states, the U.S. Virgin Islands, Puerto Rico, and the District of 
Columbia are members of EMAC. EMAC requires member states to have an 
implementation plan and to follow procedures outlined in the EMAC 
Operations Manual. EMAC takes care of issues such as reimbursement, 
liability protections, and workers' compensation issues.
    The following is a synopsis of the historical support that the 
state of Florida provided to Mississippi in the aftermath of Hurricane 
Katrina, the largest support mission in the history of EMAC. The State 
of Florida, acting under provisions of the Emergency Management 
Assistance Compact and a direct request from the Governor of 
Mississippi, deployed a self-contained response team on the day of 
landfall to the impacted coastal area of Mississippi (3 coastal 
counties of Hancock, Harrison, and Jackson; 3 contiguous inland 
counties to the north consisting of Pearl River, Stone, and George). By 
the evening of landfall on August 29, 2005 assets of law enforcement, 
firefighting, search and rescue, medical, Incident Management Teams, 
and others were in the area of operations in coastal Mississippi 
performing lifesaving, safety, and security missions. Major logistical 
assets were sent to the area, as well, to include ice, water, food, 
fuel, and other commodities to support initial response operations. Due 
to the dire situation caused by Hurricane Katrina on the Mississippi 
coast, the mission of the Florida Task Force grew significantly and 
commodities and personnel continued to flow from the State of Florida 
continuously until the end of October 2005 (note: some smaller level 
missions continued with Florida support up until November 2006). The 
Florida Task Force set-up a major command and logistical staging area 
at Stennis Space Base which became the hub of the operation. This 
command communicated with and supported Incident Management Teams from 
Florida which were located in the 6 assigned counties to support the 
local Mississippi Emergency Management Directors. In relation to this 
effort, it must be noted that the State of Florida had itself been 
impacted by Hurricane Katrina (a weaker storm at that time) prior to 
its passage into the Gulf of Mexico. It is a tribute to the entire 
Florida State Emergency Response Team (state and local government, 
private entities, faith based organizations, etc. . .) that they were 
able to effectively rise to the challenge of responding to the South 
Florida impact of Hurricane Katrina while providing significant and 
necessary assistance to our neighbors on the Gulf Coast.

Overview of EMAC Support to the State of Mississippi

        COMMODITIES: (Purchased and provided by the State of Florida)
                <bullet> Water--768 truckloads--3,648,000 gals.
                <bullet> Ice--457 truckloads--19,194,000 lbs.
                <bullet> Juice--16 trucks--16,000 cases
                <bullet> Shelf Stable Meals--138,000 meals
                <bullet> USDA commodities--6,000 cases
                <bullet> Baby food, formula, etc.--20,892 cases
                <bullet> Baby supplies (nipples, diapers, wipes)--4,962 
                cases
                <bullet> Adult diapers, wipes--376 cases
                <bullet> Children Liquid Supplement--10,200 cases
                <bullet> Adult Liquid Supplement--5,100 cases
                                <bullet> 1,304 State Trucks of 
                                Commodities
                                <bullet> 2,057 Trucks Total of 
                                Commodities

        PERSONNEL and TEAMS:
                6,404 Personnel Total
                <bullet> Three Area Command Teams with 115 personnel to 
                manage entire area of responsibility of six counties
                <bullet> Six Incident Management Teams sent to County 
                Emergency Operation Center's
                <bullet> Three Logistics Management Teams
                <bullet> Urban Search and Rescue Teams
                                <bullet> Three Type I Teams
                                <bullet> Four Type II Teams
                                <bullet> Two Water Rescue Teams
                <bullet> One Law Enforcement Mutual Aid Coordination 
                Team
                <bullet> Law Enforcement Personnel with vehicles and 
                equipment
                <bullet> 207 Fire Fighting Personnel
                <bullet> 70 ALS Ambulances and EMS personnel
                <bullet> 710 Medical Personnel in various disciplines
                <bullet> 30 Elder Care Specialists
                <bullet> 1 School Recovery Team
                <bullet> 1 FDOT Advance Recon Team (10 personnel)
                <bullet> 1 FDOT Bridge Recovery Team (7 personnel)
                <bullet> 14 Public Information Officers
                <bullet> 497 National Guard Personnel (also sent 
                aircraft and equipment)
                                <bullet> 3 zodiac boats w/trailers
                                <bullet> 3 High Mobility Multipurpose 
                                Wheeled Vehicles (HMMWV's)
                                <bullet> 2 GSA vans
                                <bullet> 2 UH-60 ``Black Hawk'' 
                                helicopters
                                <bullet> 1 CH-47 ``Chinook''
                <bullet> 4 Hazmat Teams (8 personnel)
                <bullet> 14 Volunteer, Donations and Reception Center 
                Personnel
                <bullet> 13 Animal Control Teams (60 personnel)
                <bullet> 1 State Animal Response Team (5 personnel)
                <bullet> 16 Water/Wastewater Facility Teams (101 
                personnel)
                <bullet> 4 Communications Personnel
                <bullet> 38 Recovery Personnel
    Continued support of EMAC will allow Florida to focus on the 
implementation of lessons learned from Hurricanes Katrina and Rita, 
such as training and education for all mutual aid stakeholders, 
resource typing and credentialing, and information and resource 
management.

ADDRESSING TEMPORARY DISASTER HOUSING PROGRAM CHALLENGES
    Housing is often seriously impacted following natural disasters, 
leaving many families in the impacted areas with no place to call home. 
Disaster housing consists of three phases:
        1. The initial phase focuses on retaining citizens in the 
        affected area and providing interim housing solutions for them.
        2. The next phase focuses on rebuilding local housing 
        resources.
        3. The final phase deals directly with developing long-term 
        redevelopment strategies.
    Providing housing assistance following a disaster can not just be 
based on expiration dates and eviction dates; the focus must be on long 
term housing solutions for the affected area. Disaster case management 
of survivors that deals with the entire scope of housing and human 
needs is necessary throughout all the phase to transition those 
affected from interim situations into longer term solutions. Typically 
in a community where the ability to transition disaster survivors into 
permanent housing is problematic, there is usually an existing housing 
problem before the disaster struck the community.
    A disaster housing partnership between the Federal Emergency 
Management Agency (FEMA) and Housing and Urban Development (HUD) would 
provide a disaster housing solution that is more responsive, flexible 
and would provide a more cost effective long term disaster housing 
solutions. Bringing HUD's financial resources and their subject matter 
expertise regarding building loans, subsidies and land management into 
the fold early on in the disaster housing process, would greatly 
improve an impacted community's ability to recover and develop long-
term housing solutions and strategies. Additionally, HUD is capable of 
providing case management experience for permanent solutions for 
affected citizens that will provide permanent solutions to local 
situations. Case management will result in accountability on all levels 
of disaster housing.

CONCLUSION
    The first goal the State of Florida looks at when preparing for any 
sort of disaster is how we can best serve our citizens. This goes back 
to my previous statement regarding the fact that all disasters are 
local and that all groups involved in responding to disasters must use 
a team approach, regardless of the type of disaster, to prepare for and 
respond to these events. This team approach is imperative when 
addressing the federal role in responding to disasters, it is important 
that the response from the federal level is one of a supporting role 
for state and local emergency management, it cannot supplant these 
efforts.
    Florida is successful and is looked to as a leader due to the fact 
that our leadership has invested in emergency management through the 
creation of the Florida Hurricane Catastrophe Fund and Emergency 
Management Preparedness and Assistance Trust Fund. Additionally, the 
state has worked to develop strong partnerships that will ultimately 
insure the state's success in affecting positive outcomes for those 
impacted when a disaster occurs in our state. This type of investment 
was on display recently when the Florida Legislature, based on Governor 
Crist's budget recommendations, approved an appropriation of $895,000 
in the state's FY 07--08 budget to upgrade Florida's State Warning 
Point. The Florida State Warning Point is a function of the Division of 
Emergency Management and is housed in the Emergency Operations Center. 
The Florida State Warning Point is responsible, through Florida 
Statutes and federal regulations, to be the central clearing house for 
all emergencies occurring in the State that require response by or 
resources from multi-county incidents, multi-State agency incidents or 
any incident requiring County/State/Federal communications and/or 
coordination.
    With the passage of the Post-Katrina FEMA Reform Act, Congress has 
affirmed their support for ensuring preparedness for our nation's 
continuous vulnerability against all-hazards. We must continue to build 
national preparedness efforts with a multi-hazard approach. We 
appreciate Congress' increased attention and focus on disaster 
preparedness, response, recovery, and mitigation efforts. We ask that 
Congress look at ways to immediately influx the system with resources, 
encourage and reward innovation in order to face the challenges of the 
day. We cannot afford to continue to repeat history as we did with 
Hurricane Andrew and Hurricane Katrina. We must, once and for all, 
learn the lessons of the past and resolve ourselves to ensure that 
Federal, State and local governments have adequate funding for baseline 
emergency preparedness so exercises and training can ensure that plans 
and systems are effective before a disaster.
    Again, I appreciate the opportunity to testify before your 
committee today and want to affirm Governor Crist's dedication to 
continually working with our federal partners to improve the nation's 
capabilities to respond to all types of hazards that our communities 
may face on a daily basis.
                               __________

                   Additional Questions and Responses

 Question From the Honorable Bennie G. Thompson, Committee on Homeland 
                                Security

                   Responses From Adm. Harvey Johnson

    Question: I understand that FEMA has potentially identified a 
software solution to accept and process relief applications and 
maintain real time record keeping of money spent. Does FEMA plan to 
purchase and implement this type of solution? If so, when?
    Answer: FEMA currently has the ability to accept and process relief 
applications and maintain real time record keeping of money approved 
through use of the National Emergency Management Information System 
(NEMIS). This data management system supports the disaster victim 
application process and subsequent payments to eligible applicants 
under FEMA's Individuals and Households Program.

   Questions From the Honorable Charles W. Dent, a Representative in 
                Congress from the State of Pennsylvania

    Question: My State and my district have many small streams and 
rivers that flood repeatedly after heavy rain. As you may be aware, the 
Natural Resources Conservation Service of the Department of Agriculture 
has the authority to address this problem, but lacks the funding to do 
so. FEMA has some monies available but apparently has no authority to 
engage in stream remediation.
    Is there any way that FEMA and the Natural Resources Conservation 
Service can enter into an agreement to distribute stream remediation 
funds so as to avoid making disaster declarations in the first place?
    Answer: FEMA has no authorized funds specifically for ``stream 
remediation.' The disaster relief fund is available only if there is a 
disaster declaration.

    Question: Local and State authorities have told me that FEMA's 
flood maps are out of date. Some people apparently are living in flood 
zones and don't know it, as these maps are inaccurate.
    What is FEMA doing to fix this problem? Wouldn't it be better to 
make sure that flood-prone properties are properly identified in 
advance of any natural disaster to avoid the need for Federal 
assistance?
    Answer: Recognizing in 2003 that current flood zones were outdated, 
FEMA embarked on an aggressive five-year initiative to update the 
Nation's flood hazard maps known as Flood Map Modernization (Map Mod). 
This initiative is a direct effort to provide property owners in flood 
prone areas with the most accurate and current information possible for 
making major investment decisions, including the decision to purchase 
flood insurance to help protect their financial investment in the event 
of flooding. In this way, Map Mod is an integral piece of New FEMA's 
vision to ``Reduce vulnerability to life or property'' so that the 
impacts of natural disasters and the resultant need for Federal 
assistance will, over time, be reduced (mitigated). With funding 
provided by the President and Congress, and with input from Congress 
and priorities identified by State, regional, and local partners and 
stakeholders, FEMA is transforming the way flood maps are created and 
accessed nationwide, working to modernize the 93,000-panel flood hazard 
map inventory. Under the Map Mod initiative, the quality, accuracy and 
usability of national flood hazard data is being improved by developing 
Geographic Information Systems (GIS)--based products with the best 
available technologies and enhanced technical standards.
    To measure success in achieving Map Mod goals, FEMA has set targets 
that measure the percentage of population for whom maps are available 
online and have been adopted by the community. As of December 31, 2006, 
digital flood map products were available for 48 percent of the U.S. 
population; approximately 2,800 communities had preliminary digital 
flood hazard data; approximately 2,900 other communities had adopted 
digital flood hazard data; and digital flood map products were 
available for 15 percent of the land area of the continental United 
States (approximately 0.5 million square miles).
    By the end of the Flood Map Modernization initiative, FEMA 
estimates that it will have provided accurate flood risk data in GIS 
format for a typical flood map project for 92 percent of the population 
and 65 percent of the land area of the continental United States. A 
typical Flood Map Project takes 2--3 years to complete. Based on funds 
provided through prior year appropriations and requested in the FY08 
President's Budget, mapping projects will continue to be developed 
through 2010.

    Question: What steps are you taking to help warn people in advance 
of a disaster, such as an impending flood? Our State authorities have 
told me that funding for the Flood Observation and Warning System 
(IFOS), which places sensors in rural stream areas to detect rising 
water, is very low. Wouldn't investing in such a system now help to 
save dollars down the road when disaster declarations are requested?
    Answer: FEMA is charged with integrating teams and resources for 
the coordinated and comprehensive approach to disasters natural or 
otherwise. Further, FEMA is tasked to disseminate needed supplies and 
services to minimize suffering and disruption when natural disasters 
and terrorist events occur. Further, FEMA is to coordinate the 
logistics to return disaster areas to normal functions. The approach 
for the Department of Homeland Security and FEMA, in accordance with 
FEMA's mission, is to help people plan for emergencies. Regardless of 
the disaster type, being prepared is key.
    FEMA continually stresses the importance of preparedness, through 
programs, such as Ready.gov, which urges individuals and families to 
identify potential hazards and emergencies so that they can adequately 
understand their risk and plan accordingly. Protection for families 
should include: being informed, planning for emergencies, assembling a 
disaster supply kit, planning for effective shelter, and identifying 
special needs and concerns. FEMA has also produced several educational 
materials, such as Are you Ready? An In Depth Guide to Citizen 
Preparedness (IS-22), which present a comprehensive source for 
individual, family, and community preparedness.
    Thus, although being able to predict natural weather disasters by 
using stream monitoring systems and other flood and observation and 
warning devices is useful, such practices are in the domain of the 
National Weather Service. Since it is desirable to be current on 
forecasts, warnings and guidance, FEMA can rely on IFLOWS, and myriad 
other programs operated by other entities, to tailor its readiness 
messages.
    IFLOWS is a software package designed for the National Weather 
Service that enables the two-way transfer of messages and the one-way 
transfer of forecasts, warnings, guidance, and data between the NWS 
internal communications systems and the base-station computers of the 
SCFIS and PFWS.

                                 <all>

</pre></body></html>
